<html>
<title> - [H.A.S.C. No. 111-89]INVESTING IN OUR MILITARY LEADERS: THE ROLE OF PROFESSIONAL MILITARY EDUCATION IN OFFICER DEVELOPMENT</title>
<body><pre>[House Hearing, 111 Congress]
[From the U.S. Government Publishing Office]




                         [H.A.S.C. No. 111-89]

                   INVESTING IN OUR MILITARY LEADERS:

                   THE ROLE OF PROFESSIONAL MILITARY

                    EDUCATION IN OFFICER DEVELOPMENT

                               __________

                                HEARING

                               BEFORE THE

               OVERSIGHT AND INVESTIGATIONS SUBCOMMITTEE

                                 OF THE

                      COMMITTEE ON ARMED SERVICES

                        HOUSE OF REPRESENTATIVES

                     ONE HUNDRED ELEVENTH CONGRESS

                             FIRST SESSION

                               __________

                              HEARING HELD

                             JULY 28, 2009

        

[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]





                  U.S. GOVERNMENT PRINTING OFFICE
53-165                    WASHINGTON : 2010
-----------------------------------------------------------------------
For sale by the Superintendent of Documents, U.S. Government Printing 
Office Internet: bookstore.gpo.gov Phone: toll free (866) 512-1800; DC 
area (202) 512-1800 Fax: (202) 512-2104  Mail: Stop IDCC, Washington, DC 
20402-0001










               OVERSIGHT AND INVESTIGATIONS SUBCOMMITTEE

                     VIC SNYDER, Arkansas, Chairman
JOHN SPRATT, South Carolina          ROB WITTMAN, Virginia
LORETTA SANCHEZ, California          WALTER B. JONES, North Carolina
SUSAN A. DAVIS, California           MIKE ROGERS, Alabama
JIM COOPER, Tennessee                TRENT FRANKS, Arizona
JOE SESTAK, Pennsylvania             CATHY McMORRIS RODGERS, Washington
GLENN NYE, Virginia                  DOUG LAMBORN, Colorado
CHELLIE PINGREE, Maine               TODD RUSSELL PLATTS, Pennsylvania
               Suzanne McKenna, Professional Staff Member
                Thomas Hawley, Professional Staff Member
                      Trey Howard, Staff Assistant
















                            C O N T E N T S

                              ----------                              

                     CHRONOLOGICAL LIST OF HEARINGS
                                  2009

                                                                   Page

Hearing:

Tuesday, July 28, 2009, Investing in Our Military Leaders: The 
  Role of Professional Military Education in Officer Development.     1

Appendix:

Tuesday, July 28, 2009...........................................    31
                              ----------                              

                         TUESDAY, JULY 28, 2009
 INVESTING IN OUR MILITARY LEADERS: THE ROLE OF PROFESSIONAL MILITARY 
                    EDUCATION IN OFFICER DEVELOPMENT
              STATEMENTS PRESENTED BY MEMBERS OF CONGRESS

Skelton, Hon. Ike, a Representative from Missouri, Chairman, 
  Committee on Armed Services....................................     2
Snyder, Hon. Vic, a Representative from Arkansas, Chairman, 
  Oversight and Investigations Subcommittee......................     1
Wittman, Hon. Rob, a Representative from Virginia, Ranking 
  Member, Oversight and Investigations Subcommittee..............     2

                               WITNESSES

Caldwell, Lt. Gen. William B., IV, USA, Commanding General, 
  Combined Arms Center, Deputy Commanding General, Training and 
  Doctrine Command, U.S. Army....................................     5
Lutterloh, Scott, Director, Total Force Requirements Division, 
  U.S. Navy......................................................     9
Paxton, Lt. Gen. John M., Jr., USMC, Director of Operations, 
  Joint Staff....................................................     3
Sitterly, Daniel R., Director of Force Development, Deputy Chief 
  of Staff, Manpower and Personnel, U.S. Air Force...............     7
Spiese, Maj. Gen. Melvin G., USMC, Commanding General, Training 
  and Education Command, U.S. Marine Corps.......................    10

                                APPENDIX

Prepared Statements:

    Caldwell, Lt. Gen. William B., IV............................    49
    Lutterloh, Scott.............................................    84
    Paxton, Lt. Gen. John M., Jr.................................    39
    Sitterly, Daniel R...........................................    78
    Snyder, Hon. Vic.............................................    35
    Spiese, Maj. Gen. Melvin G...................................    96
    Wittman, Hon. Rob............................................    37

Documents Submitted for the Record:

    [There were no Documents submitted.]

Witness Responses to Questions Asked During the Hearing:

    [There were no Questions submitted during the hearing.]

Questions Submitted by Members Post Hearing:

    Dr. Snyder...................................................   117
 
INVESTING IN OUR MILITARY LEADERS: THE ROLE OF PROFESSIONAL MILITARY 
                    EDUCATION IN OFFICER DEVELOPMENT

                              ----------                              

                  House of Representatives,
                       Committee on Armed Services,
                 Oversight and Investigations Subcommittee,
                            Washington, DC, Tuesday, July 28, 2009.
    The subcommittee met, pursuant to call, at 1:04 p.m., in 
room 2212, Rayburn House Office Building, Hon. Vic Snyder 
(chairman of the subcommittee) presiding.

  OPENING STATEMENT OF HON. VIC SNYDER, A REPRESENTATIVE FROM 
 ARKANSAS, CHAIRMAN, OVERSIGHT AND INVESTIGATIONS SUBCOMMITTEE

    Dr. Snyder. If you all could please sit on down.
    The hearing will come to order. Welcome to the fifth in a 
series on hearings on ``Officer in Residence Professional 
Military Education (PME).''
    Our hearings, thus far, have examined the mission, 
curricula and rigor, quality of staff, faculty and students and 
resources of service and joint institutions from the pre-
commissioning and primary levels through to the intermediate 
and senior PME levels.
    Today's hearing will have a broader focus and explore the 
role of professional military education in overall officer 
development. PME's main purpose is to contribute to the 
preparation of our military officers as they progress through 
their careers for leadership at the tactical, operational and 
strategic levels.
    Our ability to systematically produce exceptional leaders 
is a result of a very complex system of systems, made all the 
more challenging by the demands of today's operational 
environment.
    The general model used for developing our military leaders 
consists of a combination of professional military education, 
training, and experience, along with mentoring and self-
development. The process of leader development, of which PME is 
a major part, is designed to produce an officer corps made of 
skilled joint war fighters who are strategically minded, 
critical thinkers according to the vision of joint officer 
development.
    To achieve that goal, the services need policies and 
systems to manage and integrate officers' assignments, 
education, and training. It is a complicated task involving 
several kinds of inputs. I am sorry. Leader development 
strategies, visions, PME policies, and assignment policies and 
processes.
    The services and the Chairman of the Joint Chiefs of Staff 
must identify the attributes they seek in their respective 
service and joint leaders. They must deliver education and 
training at the right time and at the level appropriate in an 
officer's career. And they must manage assignments to broaden 
officers' experiences and apply their knowledge and training.
    The witnesses for this hearing today have varied 
responsibilities and authorities in three areas of PME policy, 
officer assignment policy, and leader development. This is a 
reflection of the different approaches each organization takes 
in connecting these things.
    I look forward to gaining a better understanding of how 
well we are doing with this challenging and intricate, but 
critically important task.
    [The prepared statement of Dr. Snyder can be found in the 
Appendix on page 35.]
    Mr. Wittman will be joining us shortly. He asked us to go 
ahead and begin. Mr. Skelton, any comments to begin with?

STATEMENT OF HON. IKE SKELTON, A REPRESENTATIVE FROM MISSOURI, 
             CHAIRMAN, COMMITTEE ON ARMED SERVICES

    The Chairman. Thank you very much. I compliment you on this 
excellent job that you are doing in the field of professional 
military education and those of us that have been interested in 
it for a good number of years, appreciate your efforts, Dr. 
Snyder, very, very much.
    The whole effort is to educate and identify that golden 
person that may be in a position to make recommendations or 
make decisions that lead to positive strategic results. I think 
an interesting discussion, I think I may have mentioned this to 
General Caldwell, at one time, that General Peter Pace, not too 
long before he retired, asked me about the graduates of the 
National War College, how many could actually sit down and have 
an intelligent conversation with the late George C. Marshall. 
And he said three or four. But that is not bad. That is really 
pretty good if you are producing the strategic trends.
    Now everyone in the class can understand strategy. But 
those that are actually on the cutting edge and make sound 
recommendations or solid decisions that lead to whatever the 
end-state is good for a nation, come to pass, those are the 
golden students that you, hopefully, will be educating. And 
then, of course, identifying them and then making sure they 
have the right follow-on assignments. That is your challenge. 
And I compliment you for your efforts and I wish you well in 
your endeavors.
    Dr. Snyder. Thank you, Mr. Chairman. And we are joined by 
Mr. Wittman.
    So I take back all his apologies for not being here. Go 
ahead, Mr. Wittman.

STATEMENT OF HON. ROB WITTMAN, A REPRESENTATIVE FROM VIRGINIA, 
   RANKING MEMBER, OVERSIGHT AND INVESTIGATIONS SUBCOMMITTEE

    Mr. Wittman. Thank you, Mr. Chairman. Chairman Snyder, 
Chairman Skelton, thank you so much for your leadership on 
bringing these issues to the forefront and members of the 
panel, thank you so much for taking your time out of your busy 
schedules to join us today.
    This afternoon, or this morning, well, actually, this 
afternoon. Time all runs together up here. So time is relative, 
as they say.
    The subcommittee is conducting its fifth hearing on officer 
in residence professional military education. And this hearing 
focuses on how the joint PME (JPME) education requirements fit 
into overall leadership development for the military services 
and how well the individual services capitalize on the skills 
of joint educated officers through carefully managed follow-on 
assignments.
    I note that our witnesses, each well qualified, come from 
varied communities within their services, reflecting the 
differences in approach and emphasis we have seen throughout 
this study. And since the panel collectively provides the 
subcommittee senior expertise and perspective on joint officer 
education policy, education programs, assignments and 
requirement matters, I welcome your views on the overall 
effectiveness of the joint PME system and how well it serves 
your respective organizations.
    I see no point in making all services adopt the same 
approach. We should ensure that the broad officer education and 
training system achieves its intended objectives, both to 
educate officers in joint matters and to meet specific military 
service leader development requirements as well.
    Our testimony to this point is positive, but your frank 
assessment of any necessary changes is very welcome.
    Thank you, Mr. Chairman, I look forward to hearing from our 
witnesses.
    [The prepared statement of Mr. Wittman can be found in the 
Appendix on page 37.]
    Dr. Snyder. Thank you, Mr. Wittman, and thanks for all your 
efforts on this topic and others.
    Today, the witnesses are Lieutenant General John Paxton, 
Director, Operations for the Joint Staff; Lieutenant General 
William Caldwell, IV, Commanding General, Combined Arms Center, 
Deputy Commanding General of Training and Doctrine Command in 
the U.S. Army; Mr. Dan Sitterly, Director of Force Development; 
Deputy Chief of Staff Manpower and Personnel, U.S. Air Force; 
Mr. Scott Lutterloh; Director of Total Force Training and 
Education Division of the U.S. Navy and Brigadier General 
Melvin Spiese, Commanding General, Training and Education 
Command, U.S. Marine Corps.
    Your written statements will be made a part of the record. 
I am going to have John put the light on. When the red light 
goes off, that is the end of five minutes. You all feel free to 
keep talking if you think you have more to tell us. But we want 
to give you an idea of where you are at with time.
    And we will begin with you, General Paxton, and go down the 
row.

 STATEMENT OF LT. GEN. JOHN M. PAXTON, JR., USMC, DIRECTOR OF 
                    OPERATIONS, JOINT STAFF

    General Paxton. Thank you, Mr. Chairman, Mr. Wittman and 
Chairman Skelton. Thank you very much for taking your time to 
be with us, sir, and for all of you who have contributed over 
the years to PME and officer development.
    It is a privilege to be with you today, and I thank you for 
the opportunity to discuss the Chairman's vision for joint 
officer development. As I begin, I would just like to be clear 
about my primary role today as the director of operations, I am 
filling in for the acting director of the Joint Staff.
    U.S. military power, today, is unsurpassed on the land, in 
the sea, and in the air, as well as in space and cyberspace. 
Our ability to integrate diverse capabilities into a joint 
whole that is greater than the sum of the service and agency 
parts is an undeniable North American strategic advantage.
    However, I believe that it is our people who are ultimately 
our greatest strength and our advantage. We repose special 
trust and confidence in their patriotism, valor, fidelity, and 
abilities. We recognize that these attributes are formed first 
by their families and communities, but they are then honed by 
purposeful development while in our service. Our stewardship of 
these precious assets is both a sacred trust and a solemn 
responsibility.
    The landmark 1986 Goldwater-Nichols Department of Defense 
Reorganization Act set the stage for the Department of Defense 
and put it on the path, which leads us to today's joint force 
and our approach to joint leader development.
    In 2005, Chairman Pace published his vision for joint 
officer development. This vision subsequently informed the 
division's strategic plan for joint officer management as well 
as JPME.
    Congress saw fit to support the vision in legislation and 
the transition to our joint qualified officer, our JQO, vice 
the previous joint specialty officer, recognizes the broad 
application of jointness across the Armed Forces.
    Chairman Mullen actively supports this vision and is a 
staunch believer that in order to succeed, the Armed Forces 
must fundamentally be a learning organization in both word and 
deed. Inside the context of joint officer development, our 
approach can best be summed up as the right education for the 
right officer at the right time. Very similar to what you said, 
Chairman Skelton, just a moment ago.
    Professional military education, both service and joint, is 
a critical element in our officer development, and it is the 
foundation of our learning continuum that ensures our Armed 
Forces are intrinsically learning organizations. Our young 
officers join and are largely trained and developed in their 
particular service. Over time, however, they receive training 
and education in the joint context. They will gain experience, 
pursue self-development and over the breadth of their careers, 
become the senior armed--senior leaders of our joint force.
    Our developmental efforts must ensure that those officers 
are properly prepared for their leadership roles at every level 
of activity and employment. And it is through this that the 
Armed Forces remain capable of defeating both today's and 
tomorrow's threats.
    Our future joint force requires knowledgeable, empowered, 
innovative, and decisive leaders capable of succeeding in at 
least a fluid and perhaps ultimately a chaotic operating 
environment with a much more comprehensive knowledge of 
interagency and multi-national cultures and capabilities.
    Thank you for the opportunity to be with you today to 
discuss this vital responsibility for the joint officer 
development joint professional military education.
    [The prepared statement of General Paxton can be found in 
the Appendix on page 39.]
    Dr. Snyder. General Caldwell.

STATEMENT OF LT. GEN. WILLIAM B. CALDWELL, IV, USA, COMMANDING 
   GENERAL, COMBINED ARMS CENTER, DEPUTY COMMANDING GENERAL, 
            TRAINING AND DOCTRINE COMMAND, U.S. ARMY

    General Caldwell. Chairman Skelton, sir, Chairman Snyder 
and Congressman Wittman, and just I am, obviously, Lieutenant 
General Bill Caldwell, Commanding General of the Combined Arms 
Center and I also serve as the commandant of the Army's Command 
and General Staff College. On behalf of General Casey, our Army 
Chief of Staff, and General Marty Dempsey, the commanding 
general of Training and Doctrine Command, we appreciate the 
opportunity to speak with you today about our Army's 
professional military education.
    As we all know, 20 years ago, the Skelton Report enabled 
the Army to focus its professional military education programs 
to account for the joint environment. Then, as now, this 
committee's continued advocacy for our professional military 
education, their efforts has been vital to our sustained health 
of our leader development and in fact the very security of our 
nation.
    We are absolutely committed to the ideals of education in 
preparing our next generation of leaders. Leaders that we know 
that will operate on a complex future that is marked by an air 
of uncertainty and persistent conflict, where the importance of 
leader development and professional military education cannot 
be overstated.
    Education helps leaders develop skills to quickly 
comprehend new and challenging situations, to rapidly build 
relationships and trust with mission partners and demonstrate 
competence and confidence in applying the innovative and 
adaptive solutions required to operate in this uncertain world.
    As we look at the future environment and observe the 
effects of the last eight years on our force and the Army, we 
understand that we must continue to change. We are working 
diligently to adapt our institutions and policies to better 
achieve a balance of professional military education within our 
leader development and within our Army.
    The Army's PME is progressive in nature. It reflects a 
thorough analysis of education and training to ensure leaders 
are receiving, as everybody has stated already, the right 
skills at the right time throughout their lifelong process of 
learning. We continually review our professional military 
education to ensure it remains relevant to the force through 
various internal, external, and accreditation methods. We are 
consistently taking a critical view of what is relevant, what 
must change and what outcomes we expect from educating our 
leaders.
    Our assessment is that the professional military education 
system is in fact achieving its objectives. However, we realize 
we must continually adjust to meet the current and the 
anticipated future demands. We recognize today that not 
everybody is getting their PME courses in a timely manner, due 
to current wartime demands and capacity challenges. We are 
moving forward to meet those challenges.
    We also recognize that one component of our Basic Officer 
Leader Course was ineffective and not meeting capacity demand. 
General Dempsey's decision this year to realign our Basic 
Officer Leader Course streamlines initial entry officer 
education and will in fact reduce the backlog we find of those 
waiting to attend the course.
    We are also in the process of redesigning our captains' 
career course to enable it to be a more rapid infusion of 
lessons learned that we are seeing in the field today.
    We have also just finished the expansion of our school for 
advanced military study programs by over 30 percent to ensure 
that we are meeting the wartime demands that we are 
experiencing in the force. These initiatives, from redesigning 
our Basic Officer Leadership Course, improvements in our 
current advanced operations course at Command and General Staff 
College, remain priorities for our Army.
    We are also considering a Department of Army level 
selection board for the year-long intermediate level education 
resident attendance at Command and General Staff College at 
Fort Leavenworth.
    The Army is clearly focused on improving its professional 
military education. Initiatives such as our Army Development 
Strategy, our human capital enterprise, emphasis on interagency 
collaboration and the continued adaptation and changes to each 
level of professional military education demonstrate that 
commitment.
    Though we are confident in the approach and measures taken 
to date, we truly need your help in three distinct areas that 
we think will further help enhance our professional military 
education.
    I appreciate the opportunity to talk about, and address the 
change in laws, taking away the joint duty authorization list 
credit for non-host military faculty at JPME I granting 
institutions.
    Although our Army is working on an official position 
regarding this topic, as the commandant of the Command and 
General Staff College, I can share with you that we strongly 
feel this change directly impacts the quality of instruction of 
our officers attending at the intermediate level education. 
This is all the more relevant, given that Command and General 
Staff College, the equivalent PME rates, JPME I accreditation.
    The impact of revising the National Security Defense 
Authorization Act of 2007 is two-fold. My concern is that this 
change eliminates a powerful incentive for officers from sister 
services to view this assignment as both developmental and 
career enhancing, thus perhaps narrowing the aperture of 
highly-qualified officers seeking those opportunities to teach 
at sister service institutions.
    Second, because our sister service faculty positions have 
dropped from joint duty authorization lists, they are a much 
lower, now, priority three. I believe that JPME I positions, 
and again this is me, I believe that JPME I positions should be 
considered on the joint duty authorization list by removing the 
restrictions found in Section 688 of Title 10.
    I would like to caveat that our sister services continue to 
send highly qualified officers to us at the Command and General 
Staff College. In fact, the recent selection of the Air Force 
and Navy Elements Commanders for command is indicative of that 
level of quality.
    I would like to also highlight the importance of the 
interagency participation that we are experiencing at the 
Command and General Staff College and at our Army War College. 
Increased participation is essential to our educational 
outcomes for leader development. The interagency exchange and 
fellows programs provide an opportunity for students to improve 
working relationships and further reinforce operational 
experiences.
    We will continue to facility one-to-one exchanges to 
mitigate shortfalls experienced by interagency partners when 
they commit personnel to an educational opportunity at our 
Command and General Staff College.
    And the last item I would like to emphasize, our 
comprehensive soldier fitness initiative our Army has just 
undertaken. The establishment of this comprehensive soldier 
fitness initiative recognizes the tremendous stress that our 
soldiers, our family members, and our Department of the Army 
civilian force has faced during these last 8 years, and it 
seeks to educate our soldiers to overcome hardships and adverse 
events, bounce back and in fact grow stronger in the process.
    With your continued assistance, we believe we can provide 
our leaders and our soldiers with that leadership that they 
need to continue serving in our Army. The evidence that this 
system is achieving its goals is seen today in the performance 
of the United States Army.
    The Army is performing magnificently in these most 
demanding times. This has not been achieved without mistakes, 
pain, and the loss of many comrades.
    I do want to also extend an invitation to this committee 
and to the both of you to come out and visit us at any time you 
would like at the Command and Combined Arms Center at Fort 
Leavenworth and the Army's Command and General Staff College or 
to any of our 17 schools and centers throughout the United 
States Army. An open invitation, we would love to host you at 
any time and share with you what we are doing there on our 
leader development programs.
    Thank you.
    [The prepared statement of General Caldwell can be found in 
the Appendix on page 49.]
    Dr. Snyder. Great. Thanks, General. Mr. Sitterly.

STATEMENT OF DANIEL R. SITTERLY, DIRECTOR OF FORCE DEVELOPMENT, 
 DEPUTY CHIEF OF STAFF, MANPOWER AND PERSONNEL, U.S. AIR FORCE

    Mr. Sitterly. Thank you. Chairman Snyder, Chairman Skelton, 
Ranking Member Wittman, thank you for this opportunity to 
discuss officer professional military education as the Air 
Force Director of Force Development, a position I have held 
since last week, but a job that I have been training for since 
1976.
    Over the last 33 years, I have been a student and faculty 
member at Phase 1, 2 and 3 of Non-Commissioned Officer PME 
(NCOPME), taught at the Community College of the Air Force and 
have attended and instructed as an officer and as a civilian at 
intermediate and senior PME.
    I mention this because for the first 15 years in the Air 
Force, I watched PME grow firsthand in our young institution. 
And for the past 20 years, since Goldwater-Nichols, and since 
the Skelton Panel, I have watched firsthand PME soar to new 
heights in the Air Force. And it continues to soar today.
    Our secretary and chief of staff have made developing 
airmen, officers, civilians, and enlisted, at the tactical, 
operational, and strategic levels, the top priority. In fact, 
every single PME program has undergone a significant review and 
revamp in the last 3 years.
    The first, our university commander, Major General 
Fairchild, laid down a challenge to develop officers in 
residence schools that look ahead to the next conflict as well 
as looking backwards to study past conflicts. We have accepted 
that challenge, we have added jointness, we have included 
developmental constructs, and today our mission focuses on 
preparing officers to develop, employ, and command air space 
and cyberspace power in global operations. In short, preparing 
the world's best officers, leaders, and strategic thinkers.
    We recognize in residence PME as essential for development. 
Therefore, we focus efforts through our force management and 
development council construct and embarked on a new enduring 
framework, institutional competencies to manage human capital 
across the entire enterprise.
    As part of our continuum of development education, we have 
also included a continuum of learning to ensure our airmen 
receive the right education, mapped at the right competencies, 
at the right time, throughout their careers. Key to the 
process, development teams oversee force development, including 
key aspects of the PME process to meet functional and 
institutional requirements.
    Ultimately, an airman's record of performance and future 
potential are critical in determining who is selected to attend 
PME in residence. Military and Air Force civilian students are 
selected through a rigorous and competitive Air Force-wide 
selection process.
    We also remain focused on the selection of our faculty and 
our senior staff members, the foundation for a successful PME 
program. A cadre of military members and civilians with varied 
educational histories and experiences promotes quality and 
stability in PME programs and also enhances the learning.
    School curricula are influenced by faculty, students, and 
external feedback and inputs. Operational experiences provide 
insight into the challenges and opportunities our nation faces. 
The Air Force remains flexible to ensure our curricula are 
current and relevant and that students are exposed to the very 
latest Air Force and joint lessons learned.
    The Air Force Learning Committee, another innovation, 
validates requests to change the PME curricula. This committee, 
composed of air staff functionals, major commands and air 
university representatives, balances requested curricula 
changes with senior leader priorities and policy. This includes 
relevant topics of immediate interest to the joint war fighting 
community as well as inputs from the military education 
coordination committee.
    We have made great progress since the 1989 Skelton Panel 
reforms. We have soared. Yet more can be done to inculcate a 
truly joint culture and to produce strategic thinkers.
    I want to thank this committee, specifically, for the 
authority in the FY 2009 NDAA, to allow us to award Ph.Ds to a 
select group of airmen, who graduate from our premier school of 
advanced air and space studies. Our next strategic thinkers, if 
you will. Those golden persons, Mr. Chairman.
    Your continued support of our initiatives to grow and to 
develop high-quality joint airmen is most appreciated and 
ensures our ability to continue to fly, fight and win in air, 
space, and cyberspace.
    Thank you. I look forward to your questions.
    [The prepared statement of Mr. Sitterly can be found in the 
Appendix on page 78.]
    Dr. Snyder. I did pronounce your name right, didn't I? 
``Sitterly?''
    Mr. Sitterly. Yes, doctor, that is correct.
    Dr. Snyder. All right. How about Mr. Lutterloh? Is that 
right?
    Mr. Lutterloh. Yes, sir, that is exactly right.
    Dr. Snyder. Good. Thank you.
    You are recognized.

      STATEMENT OF SCOTT LUTTERLOH, DIRECTOR, TOTAL FORCE 
                REQUIREMENTS DIVISION, U.S. NAVY

    Mr. Lutterloh. Thank you.
    Chairman Snyder, Chairman Skelton, Representative Wittman, 
distinguished members of the Oversight and Investigation 
Subcommittee, thank you for your leadership, and thank you for 
the opportunity to appear before you to discuss the Navy's 
approach to professional military education and developing Navy 
and joint leaders.
    My remarks today will focus on three areas, education 
governance, balancing competing demands, and key successes.
    The Navy has made significant strides in improving access 
to professional military education in the 20 years since Chief 
of Naval Operations Admiral Carlisle Trost appeared before the 
House Committee on Armed Services Panel on Military Education. 
We are fully committed to professional military education as a 
key enabler to building a resilient, knowledgeable and adaptive 
force, ready to meet the demands of a dynamic, multi-mission, 
and expeditionary environment.
    We have placed significant emphasis on a balanced approach 
to education, which recognizes the foundational importance of 
operational excellence and the culture of command in fielding a 
ready maritime force. Our education programs are aligned with 
the unique professional requirements of Navy specialties that 
complement and build upon the broad range of war fighting 
experiences.
    The Chief of Naval Operations designated the vice-chief as 
the Navy's education executive agent to lead Navy's investment 
in education by enabling unity of effort through coordinated 
policy, validated requirements, prioritized resources and 
standardized processes.
    As the executive agent, the vice-chief chairs the advanced 
education review board that provides oversight of Navy 
education policies and programs in support of the national 
military strategy.
    Our sailors are fully engaged on the ground, in the air, 
and at sea in support of operations in Iraq, Afghanistan, 
Africa, and around the globe. In the face of many competing 
demands, we have been effective in achieving an appropriate 
balance that places the highest priority on filling operational 
and joint billets while preserving resident, professional 
military education opportunities.
    We have achieved a number of key successes over the past 20 
years. We established a full continuum of professional military 
education that spans the career from pre-commissioning through 
selection to flag. We expanded resident and non-resident 
opportunities and increased emphasis on the integration of 
international students in our Naval War College program to 
build partnerships essential to our nation's interests and 
security.
    Our policies, programs, and processes provide us with the 
flexibility needed to balance relevant education, develop 
operational excellence, perform as an expeditionary force, and 
sustain our culture of command. All critical to joint national 
and international interests.
    On behalf of the Chief of Naval Operations, Admiral 
Roughead, thank you for your continuing support to assure the 
Navy's officer corps benefits from a robust program of 
professional military education.
    [The prepared statement of Mr. Lutterloh can be found in 
the Appendix on page 84.]
    Dr. Snyder. Thank you, Mr. Lutterloh. General Spiese.

   STATEMENT OF MAJ. GEN. MELVIN G. SPIESE, USMC, COMMANDING 
   GENERAL, TRAINING AND EDUCATION COMMAND, U.S. MARINE CORPS

    General Spiese. Chairman Snyder, Chairman Skelton, Ranking 
Member Wittman, thank you for the opportunity to discuss 
professional military education within the Marine Corps.
    The Marine Corps is proud of the programs, students and 
staff, and faculty associated with our PME. Graduates of our 
institutions are more prepared than ever to assume positions of 
increased responsibility.
    Critical components of PME are students, faculty, and 
curricula, and I am pleased to report that all three of these 
components are extremely strong within the Marine Corps. We 
have identified deficiencies in facilities and infrastructure 
and we are working diligently to improve these two areas.
    The Marine Corps PME program is a progressive learning 
system designed to educate Marines by grade throughout their 
careers. Participation in this program is an institutional 
expectation. The program consists of resident instruction, 
distance education, professional self-study, and the Marine 
Corps Professional Reading Program.
    Today's environment is constantly changing, thus requiring 
leaders to be able to rapidly adapt and solve complex problems 
at lower and lower levels of command and responsibility.
    The Marine Corps PME provides some solutions to the 
problems, but more importantly, it focuses on how to think. 
Critical thinking is more important than ever to the 
development of our leaders. The Marine Corps fully supports the 
vision of Generals Breckinridge and Gray, by embracing the 
educational goal of developing innovative, critical military 
thinkers, skilled in both the art and science of war.
    Our learning outcomes and programs have been developed and 
vetted that provide progressive educational framework as the 
material grows more complex, as our students progress through 
the courses of instruction offered at our schoolhouses. That is 
the Expeditionary Warfare School, Command and Staff College and 
the Marine Corps War College at our university.
    Although this testimony specifically focuses on resident 
PME, it is important to note our progress in delivering quality 
PME for our distance education program as it is the vehicle 
through which the majority of our Marine officers receive their 
PME. The Marine Corps commits significant resources to 
delivering quality distance education through the most modern 
means available. Our content is derived from and parallel to 
the resident curricula and we have used current technology to 
put all students in a collaborative seminar, whether in person 
or virtually.
    I believe the effectiveness of our distance education 
program can be measured in that 28 of our non-resident students 
have been selected to participate in the school of advanced war 
fighting over the last 5 years. This accounts for almost a 
third of the total Marine officers selected for that very 
competitive program.
    Within the Marine Corps, it is expected that all officers 
will complete their PME requirements, either through resident 
or non-resident means. Philosophically, the Corps believes 
completion of PME makes a Marine more competitive for promotion 
because completion of each block of PME provides the Marine 
with the requisite war fighting skills, mental dexterity, and 
analytical ability to perform at the assigned level of 
leadership responsibility.
    Our resident PME students have already proven themselves to 
be among the top performers within their peer group and were 
selected to attend our service schools because of their 
demonstrated potential for greater service. Upon completion of 
courses, our PME graduates are assigned to the most highly 
competitive billets in our operating forces, higher 
headquarters staffs, and joint positions.
    If an officer is not PME complete, he or she is not 
competitive for a joint assignment, and we would not nominate 
that officer to a gaining joint commander.
    The Commandant of the Marine Corps emphasizes the 
importance of PME in his Vision and Strategy 2025, when he 
states, ``We must promote PME as a career-long activity.''
    Officers attending PME are busier than ever, but are eager 
to participate, learn, and hone their leadership skills. The 
amount of experience of today's students is nothing short of 
amazing; particularly of our young officers. We are able to 
match the same level of experience in our military faculty, 
where the vast majority are combat veterans.
    At one time there was a line of thought that this high 
level of operational experience might cause students to be 
resistant to new ideas. That has not been the case. Today's 
students are very receptive to change, anxious to share their 
experiences, and eager to learn from one another.
    My written testimony contains a detailed explanation of how 
we are measuring effectiveness in utilizing the graduates of 
our program. We do concur with the Army's position regarding a 
change to include JPME I, non-host military positions on the 
Joint Duty Assignment List (JDAL). As I stated in my opening 
paragraph, ``Critical components of education are students, 
faculty, and the curricula, and I am pleased to report that all 
are superb.''
    Thank you again for this opportunity to speak with you 
today, and I welcome your questions.
    [The prepared statement of General Spiese can be found in 
the Appendix on page 96.]
    Dr. Snyder. Thank you, General Spiese.
    Before we go to Mr. Skelton for his questions, I want to 
take advantage of him being here and talk about the issue you 
just closed with, General Spiese, which is the joint credit, 
the joint duty assignment list issue. You, I think, four of 
you, I think, specifically talk about it. I think it is a 
problem for all of you.
    Let me see if I have got this right. The question that we 
have, and we recognize it was a change in the 2007 Defense 
Bill, if I am in the position of General Caldwell, and I have 
an Army officer come to be a faculty member, no one is saying 
that Army officer should get credit to get joint credit, 
correct?
    But if I have a----
    General Caldwell. Correct, sir. Not at my institute.
    Dr. Snyder. Not at your institution.
    But if, in the spirit of all these visits we have made, you 
always have some folks from the other services. If you had an 
Air Force officer or a Marine or a Navy officer, who has spent 
a year or two on an Army base, immersed in the culture of the 
Army, currently that person doesn't get joint credit for that 
assignment. Is that correct?
    General Caldwell. That is correct.
    Dr. Snyder. And that was because of the change that was 
made in the 2007 Defense Bill?
    General Caldwell. That is correct.
    Dr. Snyder. Yes. And how does that hurt you in your ability 
to get faculty now?
    I am directing it to you, General Caldwell, but I assume 
that they will stick your hand with a sharp pencil if you say 
something wrong, but----
    General Caldwell. Well, I saw the eye contact----
    Dr. Snyder. [OFF MIKE]
    General Caldwell. The challenge we have is, I understand 
why the change was made. Because what had occurred is I had 
been briefed, I was not there. Is that we had taken like our 
Naval officer or officers and had had them work just Naval 
issues, teach Naval subjects. And if that is in fact how they 
are being utilized, then they should not get JDAL credit. And I 
concur with that.
    However, what we look for is the robustness. We talked 
about that in the 21st century, anything we do will be in a 
Joint, Interagency, Intergovernmental, Multinational (JIIM) 
environment. Going interagency, intergovernmental, 
multinational.
    We in fact tried to build not only the student population 
to reflect that, but the faculty population too. We have worked 
very diligently to bring interagency faculty in to teach as 
part of the Command and General Staff College faculty, 
recognizing the richness that brings to the educational 
process.
    When we are unable to attract Naval and services and Air 
Force officers to come to Fort Leavenworth because they don't 
get the joint accreditation, we may not get the most highest 
potential serving officers to come.
    Throughout their career development process, they are 
seeking out and want to be serving in some joint billets. If in 
fact, we have joint billets on our faculty, and we use them as 
a regular faculty member, not as a Naval officer teaching Naval 
subjects. They may be a subject matter expert there, but they 
are part of the overall faculty developmental process that we 
have, then in fact we have the ability to attract more higher 
potential serving officers back to our institution.
    Dr. Snyder. It increases your pool of people who are 
interested, with enthusiasm, to get those jobs?
    General Caldwell. Sir, I can tell you for the Army 
officers, that as we try to reach out and find some to go to 
both Air University and the Naval War College, if we want 
recent combat deployers who have just come out of the fight, 
they realize that they don't want to stay out too long. They 
want, within 2 to 3 years, to have the opportunity to again 
serve if we are still engaged in this conflict. And therefore, 
during that time period, if they can go to a joint billet, that 
is where they would prefer to go.
    Dr. Snyder. Do any of you have any comment? General 
Caldwell will get an A+ there for his description. If any of 
you have any other comments on that? You are all--I have read 
your statements, you are all in agreement with that.
    Mr. Skelton, for questions?
    The Chairman. Let me ask, I will pick on you first, General 
Caldwell, if I may.
    There are two or three majors in your Command and General 
Staff College that you think just might have what it takes to 
be strategic thinkers. How are you going to help guide their 
career toward that end?
    And then, I wish to ask the same question of anyone that 
wishes to answer about a couple of lieutenant colonels coming 
out of the Senior War College. How are you going to help guide 
their career, if you are?
    And suppose these two majors are--they think right. The--
they give advice right. You have tested them pretty much in the 
war games and the classroom, et cetera. But their Officer 
Evaluation Reports (OERs) might or might not make them 
competitive for battalion command. What are you going to do 
with these two guys? General? Are you going to flunk them out 
and let them go elsewhere? Or what are you going to do with 
them?
    General Caldwell. Mr. Chairman, that is a great question. 
And in the past, you are exactly right. Our track has been if 
you did not go to command, your probability of making general 
officer are almost--therefore, you could have a much greater 
influence.
    The Chairman. I am not necessarily saying that they should 
be generals, but at least in 2006, to have the clout to make 
recommendations, et cetera----
    These two majors are really pretty good guys. They think 
well. You are really high on them. But they are all right as 
commanders, as company commanders and they probably might or 
might not make the cut, depending on the year, to become 
battalion commander. What are you going to do with them?
    General Caldwell. I think our recent track of establishing 
a strategist track within the United States Army is a career 
field. So that we actually have strategists now.
    We saw last year the first one----
    The Chairman. At what point do you do that?
    General Caldwell. Sir, it would be during the time you are 
a field-grade officer. Whether it would be with--you could 
elect to, you could do it slightly before that too, as a senior 
captain; that you would like to opt into that area. And for us, 
part of our job at the Command and General Staff College is to 
try to help identify those who might have immense potential in 
that area and encourage them to think about following that 
particular career field.
    So part of our faculty's responsibility is during that year 
of mentorship with the students of small group dynamics that we 
have, if they identify somebody like that----
    The Chairman. Is that career field enticing enough for them 
to someday be an O-6?
    General Caldwell. It is. Yes, Mr. Chairman, it is.
    The Chairman. Despite the fact they will never be a 
battalion commander?
    General Caldwell. That is correct. And last year was the 
first time anyone was selected for general officer too, because 
we--who had not commanded at the brigade command level. And it 
is because we recognized that there is an invaluable, 
intangible learning asset there; somebody who has a potential 
to contribute in a way that others may not be able to, with 
that kind of strategic thinking. So that we in fact take and 
encourage that.
    The Chairman. I think the committee would be very 
interested in your giving a resume of the potential career 
field along that line.
    General Caldwell. Okay.
    The Chairman. How about the rest of your lieutenant 
colonels? Is it too late to identify them there? What do you do 
with them? General? General Paxton?
    General Paxton. No, Mr. Chairman. I don't think it is ever 
too late to identify them. And I think, if we look at the 
training piece and the education piece, but as General Caldwell 
said, there is also a mentorship piece here too. And you get a 
chance as a leader, and particularly as a general officer or a 
flag officer, to identify people who bring unique skill sets 
and unique value to the service.
    And you can tell at some point, you can't vote for the 
institution, but you know when someone may not be quite as 
competitive as someone else, perhaps, for a command or perhaps 
a promotion.
    But we have an obligation to the individual and to the 
institution to groom them appropriately and that is when you 
get into the mentorship aspect, when you can teach them in the 
den or side bar one at a time. You can proffer their name to a 
commander who may need someone in an operations billet or a 
combatant command or a commander's initiative group, and you 
have mechanisms through the education thing to keep them alive 
and flourishing in----
    The Chairman. That person has to know that this isn't a 
dead end?
    General Paxton. Oh, absolutely.
    The Chairman. Am I correct?
    General Paxton. That is correct, sir.
    The Chairman. And how do you do that? How do you do that?
    General Paxton. I think two ways. Number one is to 
communicate to the individual and then number two, we have an 
obligation, not necessarily to our JPME, but to our joint 
officers' development to communicate to the institution at 
large that there is no one established track record to 
guarantee promotion or to guarantee command. That we look at 
the breadth of an officer's exposure and experience, and we try 
and cultivate that and encourage them.
    The Chairman. Yes, you have been on a number of promotion 
boards, I suppose.
    General Paxton. I have, sir.
    The Chairman. Is that taken into consideration?
    General Paxton. Absolutely, sir. I mean, obviously there 
are litmus tests and things that you look for as a baseline at 
great preponderance. Because failure to do that would be to 
encourage the wrong skills, I think.
    But you also have to look for those idiosyncratic things. 
Not necessarily that, but something that is out of the 
mainstream. But someone who has contributed to the service, to 
the war fight and needs to be promoted, and you find a place 
for him or her to land, sir.
    The Chairman. And how about the Air Force, Navy, and 
Marines?
    Mr. Sitterly. Mr. Chairman, as you all know, one of the 
results of the Skelton panel, your panel, in 1989 was the stand 
up of the school of Advanced Air and Space Studies, Air 
University. Since that school has stood up, we have graduated 
18 classes now and the culture of that school has been such 
that combatant commanders are actually requesting graduated 
students from that school because of the strategic thinking 
abilities.
    The way we get there, and we have a very competitive 
process at the beginning for Intermediate Developmental 
Education (IDE), we identified the students, the top 20 percent 
of our majors, to go into IDE at Air Command and Staff College.
    The top percentage of them are identified either by the 
school, or they are recruited by the Advanced School while they 
are there. And then, they are actually brought over to a post-
IDE school fast.
    And what we hope with the legislation that this committee 
passed for us last year, that this Congress passed, is the next 
step will be that we identify those students who will complete 
the Advanced School, and they will do, what we call, ``ABD, all 
but dissertation.''
    So, they will come to the school, the Advanced School, do 
the rigor of the thinking and the academics, if you will. They 
will go back out to the field for another operational 
assignment. And then, we will bring them back in to do their 
senior developmental education, and complete a year of their 
dissertation.
    The culture of the Air Force is such that these folks that 
have completed School of Advanced Air and Space Studies (SAASS) 
are highly sought after for command and post, and go on quite a 
ways in their career.
    The Chairman. Mr. Lutterloh.
    Mr. Lutterloh. Chairman Skelton, thank you for the 
opportunity to comment on this. The Navy has been looking at 
this issue seriously over the course of the last year, since my 
appointment as the division lead for training and education.
    I would say that the most positive movement that we have 
right now, is an initiative originated by the chief naval 
personnel, by Vice Admiral Ferguson, to create an unrestricted 
line alternative career track, in which we can take these hot-
running officers that may be just a step below some of their 
peers in terms of operational excellence, and vector them into 
some of the more strategic positions.
    We have not quite ferreted this out yet. But we are on a 
path to do this.
    We believe wholeheartedly that mentorship is a valuable 
piece of this, continued education across their career path is 
a piece of this, and specific assignments, whether that be in 
the strategy cells in the Office of the Chief of Naval 
Operations (OPNAV) staff in N3/N5, or whether that be as part 
of the Chief of Naval Operation's (CNO's) strategic study 
groups. These positions will help them develop into the 
strategic thinkers that we need.
    The Chairman. In answering that question, I don't want to 
exclude your first class operational folks from that career 
path as well. Because, chances are they would be very 
competitive in a strategic environment, chances are.
    I am talking about those others that just might not, but on 
the other hand could be very, very helpful in strategic 
thought.
    General.
    General Spiese. Mr. Chairman, we believe we do identify our 
strongest officers for selection going into school. Even though 
not all of them subsequently we selected for command.
    And we identified that through a myriad of both 
quantitative and non-quantitative qualities to our performance 
evaluation system. And we do have examples of successful career 
paths, non-traditional career paths rising to the grade of 
colonel, not necessarily through command.
    So, we identify those, as General Paxton said. We are able 
to observe those. We get those in the performance evaluations. 
And we continue to bring them along as we identify them in 
service.
    The Chairman. Thank you very much. Thank you, Mr. Chairman.
    Dr. Snyder. Mr. Wittman.
    Mr. Wittman. Thank you, Mr. Chairman. General Caldwell, I 
will begin with you.
    Just want to get a perspective about the current efforts 
within PME and how students are educated and they are exposed?
    Can you give me an idea about how early you think maybe is 
too early for interagency exposure within PME?
    And then also, the progression of service education and 
joint education and interagency education, is that the right 
mix? Is that a concept that is current today? Is it a concept 
that is current today? Is it dated?
    And how should we look at, those, joint and interagency 
student participation in the current efforts with PME? Are 
there things that need to be changed there, based on the 
current set of conditions that we face, both internal and 
external to our service branches?
    General Caldwell. Sir, that is a great question. And one we 
have been dealing with over time here, because, we do talk 
about education as a life-long learning process.
    So, where do we introduce into and add this mix of 
experiences along the way?
    Our position that we had taken is that, we do in fact need 
to introduce interagency at a much earlier phase of leader 
development than we have in the past. Traditionally, it has 
been at about senior service college level, and about perhaps, 
16 to 20 years of service.
    Our position now is, given that the young lieutenants today 
operate in Iraq and Afghanistan, will find the U.S. Agency for 
International Development (USAID) representative there, will 
turn and find the U.S. agricultural representative and the ag 
teams, as we call them, ``agricultural teams,'' will in turn 
find someone from trade and commerce or justice.
    We understand now that, we can't wait that long in an 
officer's career development and a non-commissioned officer's 
career development to do that introduction of that.
    And so, our position is that at the intermediate level of 
education, the Command and General Staff College level, we do 
in fact use a greater level of interagency participation, than 
we have done in the past.
    Two years ago, when I arrived at Fort Leavenworth, and 
looked at the Command and General Staff College, we only had 
two from the interagency, and they were both from diplomatic 
security out of the Department of State.
    Former military guys who had decided it would be kind of 
neat to come back and go to school with their buddies. I mean I 
talked to both and I understood exactly what they were trying 
to do.
    Today, as we start this year, we will have up to 30. And we 
will have done the exchange program with the interagency. But 
we would like to grow it, so that there is one in every single 
classroom of our 96 classrooms.
    So we want to expand this much further than even are today, 
because they are in fact bringing and adding to the educational 
process, something that we can't just learn out of textbooks. 
And so that when we are participating in our exercises, in our 
class room discussions, informal, off-duty relationships, it is 
really a powerful tool to facilitate that.
    Last year, I graduated two out of the school for Advanced 
Military studies from USAID. Today, one of them is serving in 
the U.S. Central Command as the USAID representative there. The 
other one is in Afghanistan serving as the senior coordinator 
there.
    That kind of experience that they now bring to those 
locations, with their background and training they had in 
USAID, a year of advanced studies at the Command and General 
Staff College with the Department of Defense, now back into 
operational environment, we will be trying to integrate those 
two, is just something you can't replicate in any other kind of 
fashion.
    So, our position is that, and I don't--it is a little 
longer than I thought. At the Command and General Staff 
College, we absolutely think it is imperative that we have 
interagency participation and involvement.
    And that without that, the idea of having JIIM, joint 
interagency intergovernmental and multinational, is you are 
missing the ``I'', a huge piece. We have been great at working 
the joint. We have been great at working the multinational. We 
have a good international representation and we are growing it.
    Just Friday, I was with the chief of the Armed Forces for 
India. And he and I, again, talked about taking from three 
Indian students out of Fort Leavenworth, up to nine here in the 
next year. Because, we recognize the importance of that ally 
and the need to do more exchange with them.
    But the part that we are still challenged in is in the 
interagency, because there is no formal mechanism. It is all 
relationship building right now, and studying the conditions 
that it appears to be lucrative for that. But yet, the 
incentives don't exist within the other agencies for them to 
want to send people. It is not career enhancing.
    When you talk to my Department of State, Foreign Service 
officers that just graduated, they will tell you that it is 
considered a neutral kind of event they just went to.
    Yet in fact, in future conflicts, those Foreign Service 
officers will be absolutely invaluable and have an 
appreciation, understanding for what the military, not just the 
Army, but the military brings, because, they have trained for 
an entire year, and educated for an entire year, for that kind 
of environment.
    Mr. Wittman. General Paxton.
    General Paxton. Thank you, Congressman Wittman.
    I guess I would like to go back to the first part of that. 
I don't debate at all what General Caldwell said.
    And, I think we all see the merits in the interagency, the 
inter-government and the multinational. And there is always a 
constant debate about how much, and how early?
    I would just like to go back to the first part of your 
question. And just to reinforce what we have always believed, 
and what has been part of General Pace's doctrine and what 
Chairman Mullen believes is that the foundation of the bedrock 
for having a good joint officer, is to have a service officer, 
somebody who is skilled and accomplished in the art and the 
science of war fighting. And has mastered the fundamentals of 
his tradecraft, or her tradecraft, be it soldier, sailor, 
airmen or Marine.
    And we firmly believe that we have to integrate and instill 
as early as possible, all those intergovernmental, interagency, 
and multinational things.
    But if you--if we don't want to risk the bedrock foundation 
which is really a solid development of a good officer, who 
understands war fighting. And I just make that point, sir.
    Mr. Wittman. Mr. Sitterly.
    Mr. Sitterly. Thank you, congressman for that question. I 
agree with both of my colleagues.
    I think that because of the nature of the environment that 
we are dealing with today, we are sending younger officers out 
in smaller groups, in very isolated situations. And I think it 
is important that we at least educate them on the strategic 
implication of their tactical actions.
    And so, we have, at the Air and Space basic course, as part 
of our primary developmental education, gone out of our way to 
partner with the Army at Camp Shelby and take folks out. And 
sort of give them that flavor at a much earlier age than we did 
before.
    I also agree that the interagency, intergovernmental part 
of that is important. We have increased our quotas slightly at 
our war colleges. But, for every position that you give to 
another person outside of the Air Force, that is one Air Force 
person that can't.
    And like General Paxton suggested, we have to have good Air 
Force officers before we can have good joint officers. Thank 
you.
    Mr. Wittman. Mr. Lutterloh.
    Mr. Lutterloh. Representative Wittman, thank you very much. 
You will be pleased to know that our junior officers returning 
from our ship, from our fleet ship today, are well experienced 
in many of these operations.
    Whether in partnership Africa, or in humanitarian 
assistance missions around the globe, they are experienced in 
exactly what you are talking about, not only interagency, but 
also non-governmental organizations as well. So, our junior 
officers are experiencing this first hand.
    We believe, in the Navy, that this has to be integrated 
across the board. I agree with General Paxton wholeheartedly. 
Operational excellence at the service level is foundation to a 
credible joint commitment.
    As we move through that, War College has already integrated 
international partners. And our post-graduate school has as 
well. So, we think we are moving along in that regard.
    War College has considered interagency and is ready to work 
with military education coordination councils to make these 
changes that will lead us into the future.
    Post-graduate school is considering a partnership in Europe 
to work on some of these non-governmental organizations. So, 
across the board, you see a wave, a movement, that will lead us 
in this direction.
    The last point I would make is that I think that our 
training and our exercises will have to follow suit. And we 
will have to do this to reinforce our education with exercises 
that integrate international partners, inter-agencies, and even 
non-governmental organizations to a large extent.
    Thank you.
    Mr. Wittman. General Spiese.
    General Spiese. Congressman Wittman, although Expeditionary 
Warfare School is a predominantly service specific school, we 
do present interagency considerations towards the end of the 
curriculum and the high end exercises, as a reflection of the 
reality of what is happening on the ground.
    It is also a joint school with about one-third of the 
student population being students from the Air Force, the Army, 
or international students.
    Clearly though, an intermediate level school, command and 
staff college before the greatest of effort, we have a very 
broad and expansive, diverse interagency presence. We do have 
the luxury of being located in the Washington area. So, we have 
access to a lot of agencies, and opportunities for the student 
population that we might not otherwise in other locations.
    And so, we certainly understand that. It is fully, 
integral, into all of our curricula, even those where we 
emphasize the service development of our students.
    Mr. Wittman. Thank you, Mr. Chairman.
    Dr. Snyder. General Caldwell, you were talking about, you 
talked in my office and you talked to Congressman Wittman 
about, your exchange with, and Army officers going to the State 
Department, or USAID. And you are getting 10 folks back for a 
year exchange, so you have the students in your class.
    Do you think that is ultimately how these needs are going 
to be met? Or is it going to be that the civilian side has to 
increase their float, so they have enough people to come to the 
schools?
    Because, they think they benefit greatly. We have talked 
with some of the State Department and IDE people; they think it 
is a tremendous experience for them.
    Isn't that how this is ultimately going to be solved?
    General Caldwell. Mr. Chairman, I think it is. Obviously, 
we are trying to----
    Dr. Snyder. You are being creative, you are being creative.
    General Caldwell [continuing]. So we have tried to find a 
way to incentivize it so they want to come out there by knowing 
that they would get a replacement person a seat.
    I very much appreciate having been to, I don't know, 15 or 
20 of our departments and agencies in Washington and personally 
sitting and talking with senior leadership in each of them over 
the last year and a half.
    That their challenges, they don't have a school account, 
nor the resources to pay for the moves and the relocations 
associated with it, to send their people to our institutions.
    And so, whenever we can incentivize it so that, if they 
give up a person, knowing they have no school account, which 
means that seat does go empty for a year, if we feel it is that 
important to us in the Army, then we will provide an officer as 
a backfill recognizing we get tremendous value out of that too.
    It is a wonderful interagency experience for that officer, 
he or she serves in that particular agency or department. Now, 
we have a doctor in Health and Human Services (HHS). We have a 
person who is a civil affairs officer in USAID.
    In the Department of State, we have a mixture of combat 
veterans who have served in both Iraq and Afghanistan. We have 
really taken and worked who we also put into these exchange 
programs, so there is a benefit associated with their skill 
specialty and background too, when we do that.
    But longer term, there really--what would be most 
beneficial, in my personal opinion, is that for the agencies 
and departments to have some kind of overhead, a school 
account, whatever that is.
    And the funding associated with it, so that they can in 
fact send people on a life-long professional, developmental 
track which we, in the Armed Forces, have found is so 
beneficial to us. In the future, I would think that those in 
the agencies and departments would want to set up and establish 
for themselves too.
    Dr. Snyder. Yes. As I think I talked before, just one of 
the downsides of what we have done for the last some years, 
decades. Really eviscerating in a lot of ways, USAID and State 
Department budget and personnel, and we are paying a price for 
it now in our national security.
    Secretary Gates has probably been the best spokesperson. 
The secretary of defense, he started this a couple, 3 years 
ago, when President Bush was still president.
    That we have to provide financial capability to build up 
those personnel forces and budgets. And this is one of the 
reasons that it doesn't get a lot of attention. But it is very 
important.
    General Caldwell, I wanted to ask you also a specific 
question.
    It is my understanding that the Army is going through an 
evaluation process about the numbers of people they think they 
can get through the in-residence program.
    Do you have any updates on where that is at? We had a 
pretty robust goal there for a while, is that still the goal? 
Or is it being reevaluated?
    General Caldwell. Mr. Chairman, I guess what I should start 
by saying is we said that everybody is going to have an in-
residence experience. But, we should have been more clear on 
it, that there are two kinds of in-residence experiences.
    There is the 1-year program, the 10-month program at Fort 
Leavenworth, Kansas at the Command and General Staff College. 
And then there is the four-month in-residence program that is a 
satellite school we have set up.
    We are opening up our fourth one here or fifth one really, 
very shortly at Redstone Arsenal down in Alabama. That will be 
our fifth location.
    But, the key is every major in the United States Army will 
either go to the 10-month in-residence program or the four-
month in-residence program with the rest done by distance 
learning.
    There is a core program, ``c-o-r-e'', core program that we 
run at both institutions the same. So, the same four months of 
instruction, which we feel are inherently required of every 
military officer to have will be taught to every major still.
    And you will get that by in-residence experience. But then 
for the remainder of the program, obviously there is a much 
greater richness that is derived out of going to Fort 
Leavenworth.
    We see about 50 percent of our majors will go through the 
program at Fort Leavenworth, Kansas, which is the 1-year, 10-
month program. And then the other 50 percent are going to go 
through the satellite programs.
    Dr. Snyder. Mr. Wittman.
    Mr. Wittman. Thank you, Mr. Chairman. Gentlemen, I want to 
expand a little bit on what Chairman Skelton talked about a 
little bit earlier, and look at things external to PME and 
joint PME. And look a little bit about, how do we go about 
assigning folks after PME, or joint PME?
    Are there things that we can do to look at assignments 
prior to PME?
    And what are the best assignments to get the most out of, 
or to get the best return on, our investment after our folks 
get out of PME or joint PME?
    And General Paxton, I will begin with you. To sort of look 
externally there, about how do we best prepare folks coming in? 
Are there better assignments to prepare them?
    How do we consider assignments afterwards? And how do we 
make sure we get the best return on investment in looking at 
those assignments?
    General Paxton. Thank you, Congressman Wittman.
    I think there is a fairly universal agreement that, 
certainly no education is ever wasted. But to maximize the 
value of the education, to get the best return on investment, 
an immediate assignment after school where you apply and 
practice those skills is the best thing.
    We have an inherent mismatch, where I think, in any given 
year, you get maybe 2,000 students that will go through the 
JPME process. And yet, there are 11,000 vacancies that need to 
be filled on the JDAL.
    And so, even if you were to take a five-year model there, 
you are still gong to come up short. And that does not account 
for the demands of the war, the competing priorities of the 
command pipeline, or a promotion, or things like that. That 
just inherently put you on a little different track.
    So, the best thing for us is to: a) continue the good work 
we do across the board about selecting and identifying the 
right folks to go to school, and b) trying to assign them as 
quickly as possible after their school to the proper follow-on 
assignment.
    And then, we are going to have to work through the ``eaches 
and others,'' almost on a case-by-case basis about how long 
they stay in that assignment, where they go to next.
    So, I think if the guiding precept is to use it, and to use 
it as fast as you can. That usually puts us in the best stead, 
sir.
    Mr. Wittman. Thank you.
    General Caldwell.
    General Caldwell. Sir, what I would say, you know there is 
the functional training which is to prepare you for some 
specific kind of--particularly job you can do. And there is the 
educational experiential training that we hope teaches you how 
to think, not what to think.
    And therefore, turns you onto a life-long learning process 
of wanting to continue to always expand your horizons, trying 
different opportunities to evolve your skill sets. So that when 
you are confronted with something that is never thought of 
before, it is extremely complex and difficult, and is a real 
challenge, you have got those skill sets inherently built into 
you, that allows you to process and assimilate and add some 
order out of this chaos. And sort of establish what it is we 
are ultimately trying to answer, or to find a solution for.
    And then at that point, take and implement your military 
playing process and everything else that we have always had in 
place. And has proven very valid over the years, to then follow 
through and execute.
    Currently in the United States Army, I can tell you, sir. 
We are challenged in getting everybody to their professional 
military education. When you asked how we are selecting that 
right now, we, in fact, are going through a process where we 
are writing a development strategy, General Dempsey is the lead 
for the human capital enterprise in the United States Army.
    He is going to come back with some implementing portions of 
that. We have pretty much done the draft already for both the 
officers and non-commissioned officer, the Army civilian, and 
the warrant officer piece. That would then help set--put some 
more timelines on certain things that would occur.
    How long would you be in command? When would you have to go 
do a joint type of billet?
    Because we are finding, after these last eight years, and 
the way we have been continuously engaged, that not all of our 
officers, non-commissioned officers, warrant officers have been 
getting to the professional military education that they should 
be.
    And so by developing this leader strategy, with its 
implementing guidelines, we in fact will add rigor back to the 
process that we did have before 9/11 on a very predictable, 
established schedule that everybody understood. That we have 
gone away from--if we in fact are going to find ourselves in 
this war for the next 10 to 15, 20 years, which all of us in 
the United States Army today agree will probably be the norm.
    Then we have to find a method by which we are going to 
ensure that PME is in fact executed to the standard we need to 
ensure that we have the same Army 20 years from now, that we 
have today. And that we don't mortgage it off.
    Thank you.
    Mr. Wittman. Mr. Sitterly.
    Mr. Sitterly. Thank you, congressman. I am very excited by 
what the Air Force started in 2004 with what we called 
development teams. We have a team of colonels, one stars, and 
two stars that are responsible, by career field, for every 
officer from lieutenant all the way through colonel.
    Over the last several years, we have watched this mature. 
So, this team gets together. And along with input from the 
individuals through a web-based form, along with input from the 
senior leader, that individual that an officer works for at the 
base, and the developmental team, they are making vectors to 
the assignment team on where this individual ought to go next.
    So, if the team decides that that person hasn't had a joint 
assignment yet, or they need to go to command yet, or they may 
need more experience on the air staff or the Major Command 
(MAJCOM). They go do something different. Then, they have 
direct input into that officer.
    So, the developmental teams are also making inputs into 
folks going to faculty on PME. And they only send their best 
and their brightest. And so, they have insight into those 
people when they go into the assignments, and when they come 
out of the assignments as well.
    Thank you.
    Mr. Wittman. Thank you.
    Mr. Lutterloh.
    Mr. Lutterloh. Congressman Wittman, thank you very much. We 
believe, in the Navy, that the operational excellence builds 
considerable flexibility in our officer corps to meet a wide 
array of requirements in the joint community.
    Obviously, joint experience, prior to education, is going 
to enhance that. But, I believe that all of our operational 
rules and our critical restricted line rules positioned those 
officers at JPME level--JPME I level, to effectively understand 
what is going on.
    As we prepare those officers, and Navy's policy right now 
is, that prior to commander command, all officers must have 
JPME I completed.
    So, we believe that that positions those commanding 
officers to effectively participate in joint task force 
operations, joint operations, coalition operations, to a much 
greater degree than ever before.
    As we followed that experience up with JPME II, and work 
into their careers those joint experiences, I believe we will 
get considerable pay off.
    Mr. Wittman. General Spiese.
    General Spiese. Congressman Wittman, consideration for a 
intermediate level school, not surprisingly, is predominantly 
based on service-related performance in a younger officer's 
career.
    We are very selective in our assignment process. In 
particular, joint assignments. They are competitive in nature. 
And performance, overall, as well as in school, are a 
consideration for those assignments.
    We select resident top-level school at about 13 percent. As 
a consequence of that, we are very selective in our assignments 
coming out of top-level school, ensuring we get a solid return 
on investment for those graduates.
    Mr. Wittman. Thank you, Mr. Chairman.
    Dr. Snyder. Mr. Sitterly, I have a specific question I want 
to ask you.
    We heard from some Air Force personnel that in order to be 
competitive for your in-residence--and this is an unfair 
question to ask a guy who has been on the job for 10 days or 
something.
    But anyway, they told you to come here. So, you are doing 
the best you can with it.
    We have heard from some of the Air Force personnel that in 
order to be competitive, for in-residence PME that it is 
helpful to have done distance learning PME, which seems 
duplicative.
    I mean, I don't think that is what distance learning was 
set up--are they wrong? Or what are your thoughts about that? 
Or am I asking a question that you are not up to speed on yet?
    Mr. Sitterly. No, I would like to comment----
    Dr. Snyder. Yes.
    Mr. Sitterly [continuing]. Chairman Snyder. Thank you for 
the question.
    Through our selection process, we select the top 15 percent 
as selects from the order of merit on the promotion boards for 
senior developmental education, and the top 20 percent for 
intermediate developmental education, so, a very competitive 
process to be a select.
    The current Air Force policy is that all selects will go to 
school. You have a three-year window to go at the intermediate 
level, and a four-year window to go at the senior level.
    The current policy is that all of the rest of the officers, 
who are eligible, are then considered candidates. Everyone is 
qualified, if you will, to take the distance learning.
    The current Air Force policy is that if you are a select, 
you will go. And that you do not need to take the distance-
learning course.
    What we have as a policy is that we expect all of the 
officers to have the next level of PME done by the time they 
are promoted to the next rank. So, that is the current policy.
    Dr. Snyder. All right, so--well, maybe we will do this as a 
question for the record, because, we are getting kind of wading 
around the weeds here.
    I wanted to ask, General Spiese?
    You made a comment in your written statement about, and I 
would like you to amplify on. On page 12 and 13, you talk about 
the hiring authority.
    It sounds like you are, needing, a statutory change. Is it 
a statutory change? Or is it our job or your all job to get it 
straightened out?
    General Spiese. Mr. Chairman, it is statutory.
    Dr. Snyder. Explain it to us, please.
    General Spiese. Currently, Title 10 Hiring Authority 
requires linkages to 10-month academic programs. We run a 
number of other programs out of Marine Corps University that 
are shorter in length, that do not tie back to a 10-month 
program.
    But, we believe would benefit greatly from the latitude 
with Title 10 Hiring Authority. In particular, our enlisted 
professional military education, and the opportunity to seek 
Title 10 support for our senior staff and NCO professional 
military education.
    We believe that that could bring something to the table for 
our senior staff non-commissioned officers.
    Dr. Snyder. Let me see if I got this right. Now, are you 
talking about the hiring authority for faculty?
    General Spiese. Correct, yes.
    Dr. Snyder. So, if you have a 10-month course, you have got 
some options there that you all want to hire faculty members 
for 10 months. If you have two 5-month courses in a row, even 
though it is the same person on your premises for 10 months, 
you don't have the same hiring authority.
    General Spiese. That is how we understand the statute. And 
that is how we have been applying the statute. Correct.
    Dr. Snyder. Maybe we could try to look in that document, 
and see if can sort that out too.
    Do the rest of you have that issue? Is that an issue that 
you all deal with?
    General Caldwell? Mr. Sitterly? Mr. Lutterloh?
    Mr. Lutterloh. Mr. Chairman, from a Navy perspective, I 
would say that faculty is one of our pre-eminent concerns at 
the War College. But that said, I have not encountered this 
issue.
    Dr. Snyder. General Caldwell, you were about to say 
something?
    General Caldwell. Mr. Chairman, what I was going to say is; 
I am very much aware what Mel is talking about. Through legal 
interpretation, because we have tied most of our forces to the 
10-month program, we are able to get a legal opinion and hire 
the faculty where it has been necessary.
    But his point is well taken. It takes a tremendous amount 
of interconnectivity and work-arounds to----
    Dr. Snyder. Yes, it doesn't seem like the kind of thing you 
all have to worry about.
    We have to try to get that straightened out.
    General Caldwell [continuing]. We would welcome the 
Marine's----
    Dr. Snyder. Yes, why don't you all get your legal folks to 
make some suggestions, and to work with the staff? And see if 
we can't get that straightened out.
    I wanted to ask--I am about out of time. So, I am going to 
ask a general question for each of you.
    If you were to sit down today with the combatant commanders 
that are out there, and you are training these folks and 
sending them to them, do you have a formal mechanism for 
hearing from them about whether they think that educational 
products, meaning your officers coming out of schools, is what 
they need?
    And number two, what do you think they would say?
    General Paxton.
    General Paxton. Yes, thank you, Mr. Chairman. I believe the 
mechanism which we do have is probably a little bit more 
informal, than it is formal. But there are committees and 
working groups.
    When we routinely work out--reach out, and this is at the 
joint staff level, to the services and to the combatants to 
manage their input. So, there is not too many initiatives that 
we undertake, either through JPME or joint officer development.
    We are not actively soliciting the input and the left and 
right lateral limits, if you will, from both the services and 
the combatant commanders.
    I think universally, I believe that they will tell you that 
the process is working well, both in terms of development, 
quality, and assignment. There is always an issue with 
capacity. There is always an issue of how much we can generate 
how fast.
    And there is always an issue of assignment policy. Who gets 
what?
    And it is exacerbated, as General Caldwell said, given the 
demands of the war, and trying to cycle people in and out of 
command, and in and out of both Afghanistan and Iraq.
    And that is part of the reason we reach out to talk to the 
combatant commands and the services. So, we can look at this 
from both the supply side and the demand side, sir.
    Dr. Snyder. General Caldwell.
    General Caldwell. Mr. Chairman, I have served on the 
combatant command staff in a senior-level position. And, I will 
tell you what is interesting is each time an officer is 
nominated by one of the services, if it is a field grade 
officer, major-level, we are looking to see if they are a 
graduate of their staff college.
    It is the first qualification that you inherently look at 
on that bio, whether or not you are going to accept an officer 
or not.
    And then, if it is a more senior officer, lieutenant 
colonel promotable, or a colonel/Navy captain, your question 
is, did they go to their senior service college?
    We actually ask that question before we normally even ask 
whether they are joint-qualified. Because, the feeling is, we 
can, if we have to, do on the job training, and teach them the 
joint qualification requirements they are going to need for 
that particular skill set, and that particular job. Not for 
all, but at least for that one.
    Much more readily than we can from the one-year in-
residence program they probably experienced while going to the 
Naval War College or the Marine Command and Staff College, or 
something like that.
    But, those are two skill sets I can tell you, Mr. Chairman, 
that are readily looked at by everybody on a combatant command 
staff, as we assess an officer that we are looking to bring in 
to, that have been nominated by the joint staff for duty there.
    Dr. Snyder. Mr. Sitterly.
    Mr. Sitterly. Thank you, Mr. Chairman. We already know that 
the combatant commanders value our SAASS graduates, because, 
they ask for specific people to come out to their command.
    The other mechanism we use is through the Military 
Education Coordination Committee. And each year, the chairman 
looks at the various special areas for emphasis.
    And so, last year out of nine different areas that were 
included in this, those Special Areas of Emphasis (SAEs), I 
think about eight of them came directly from the combatant 
commanders back to the committee to consider. And the ninth one 
came from our Air War College. And that was space of the 
contested domain.
    So, it is an opportunity for us to hear from the combatant 
commanders, things that we want to put into the joint 
curriculum at the school to be emphasized. And, it also allows 
us then in turn to take it to our Air Force learning committee, 
which we have recently devised to look across the spectrum of 
education, to see where our shortfalls may be, or to see where 
we need to emphasize.
    Thank you, Mr. Chairman.
    Dr. Snyder. You don't speak, you can last all day.
    Why don't you go first, and we will go back to Mr. 
Lutterloh.
    General Spiese. Thank you, Mr. Chairman. We do have formal 
mechanisms, of course, for service specific feedback. We do not 
have anything similar related to the combatant commanders or 
joint commanders.
    However, we understand from informal engagement, as General 
Paxton had mentioned, that our graduates are well thought of. 
And we seem to be hitting the mark.
    Obviously, you are responsive to Office of the Secretary of 
Defense (OSD) directives, as it relates to joint requirements 
inside the joint portions of the curriculum.
    Dr. Snyder. And Mr. Lutterloh.
    Mr. Lutterloh. Thank you, Mr. Chairman. In our view, the 
feedback from the Combatant Commands (COCOMs) has been 
extremely positive on the value of the War College and the 
joint professional military education it provides.
    I think the flexibility of the naval officers is coveted 
out there. The one area, I think, that we probably stand to 
improve is on the numbers that we are able to get through that 
school, and provide that foundation of joint operations.
    That said, we have got a number of mechanisms, both 
informal through surveys that are conducted by the War College. 
And discussions with other flag officers.
    And in particular, our component command that are co-
located with the COCOMs, our Navy commands, provide us 
invaluable feedback.
    And lastly, both the CNO and the chief naval personnel 
regularly conduct boots on ground discussions with those 
combatant commanders to get that feedback directly.
    Dr. Snyder. Mr. Wittman.
    Mr. Wittman. All done.
    Dr. Snyder. I want to ask one final question. As you know, 
Mr. Skelton was involved in this issue, 20 years ago. And did 
great, great work on a panel they had on this topic. And there 
were some fairly big changes made in PME.
    I think for the last 10 years or so, if not a little bit 
longer, I don't think this committee, and the Congress, has 
paid as much attention to the issue that probably we ought to 
have.
    An example might be that issue that we were talking about 
with regard to the joint duty assignment list. That is really 
the kind of thing we probably should have picked up on two or 
three years ago, that was a problem for you.
    And I just don't think we--I don't know that we were aware 
of it, or not at least hadn't given you the opportunity to 
amplify on it.
    Do you think it would be helpful, like we do with the 
military health care, with recruiting retention, and some other 
topics, to have some kind of an annual hearing in the Armed 
Services Committee on the specific topic of professional 
military education?
    I don't except any long answer, but any comments?
    General Paxton.
    General Paxton. Yes, thank you, Mr. Chairman. I was going 
to save some of this to the kind of closing remarks, if you 
care to be gracious enough, and afforded us the opportunity.
    Dr. Snyder. Yes.
    General Paxton. But, I think, certainly on behalf of the 
chairman, and I think most of the services, we truly appreciate 
the support of the committee and the subcommittee.
    And, we really think that the success that JPME and Joint 
Officer Development (JOD) is because of this great relationship 
that we have had for the better part of the last 25 years.
    So with that as a backdrop, I think the continued exchange 
and dialogue is nothing but helpful, and our only thought, if 
you will, and certainly not a caveat, is the more that we can 
just kind of generally outline left and right lateral limits, 
and the more we can raise the floor without being unnecessarily 
prescriptive one way or the other, just gives us a lot of 
latitude.
    Because there are a lot of things that are lagging 
indicators to us, and we certainly couldn't have predicted, 
given what happened after 9-11, so the pace of PME and the idea 
of distance learning and non-resident education, and 
composition of the faculties, a lot of this is a constantly 
moving target as you well know, sir.
    But, thank you for the opportunity. And it is a great 
dialogue. And I think we would probably support the continued 
dialogue.
    Dr. Snyder. Yes. Anybody else have any comments?
    General Caldwell.
    General Caldwell. Mr. Chairman, I would welcome it. I can 
tell you, if somebody asked me who I worked for, sometimes I 
work for Chairman Skelton.
    It has been an ongoing continuous dialogue for the last two 
years I have been in this position. On a regular basis, he 
will, in fact, engage and ask those various types of questions. 
Which have one, helped me be much more succinct in what I am 
trying to achieve on behalf of the United States Army in this 
position that I am in, and for our future leaders.
    But secondly, just as important, it allows that dialogue. 
So again, a much greater appreciation for how members in 
Congress can help us move some of these efforts along.
    And I think a formal mechanism like this actually is very, 
very beneficial. I know when Lorry came out and spent time at 
Fort Leavenworth, her and the whole family; we very much 
appreciated them being out there. And giving us that 
opportunity to discuss and go through.
    Because, there are a lot more even smaller items we didn't 
talk about today.
    Dr. Snyder. Right, right.
    General Caldwell. So that we did have the opportunity to 
sit with her and her staff was there out there and dialogue 
about, if we could receive assistance here or----
    Dr. Snyder. Yes.
    General Caldwell [continuing]. If you could be more, clear, 
in your guidance to us that would be very, very helpful.
    Dr. Snyder. Yes.
    General Caldwell. So----
    Dr. Snyder. Some of them are statutory and some of them are 
money issues. And those are the kinds of things that we can 
work on.
    Any other comments?
    I appreciate you all----
    Mr. Lutterloh. Mr. Chairman.
    Dr. Snyder. Yes.
    Mr. Lutterloh. From the Navy's standpoint, we would welcome 
that interaction. We are very grateful for the continued 
support of this committee and others in Congress, for the Navy 
in general and for the flexibility that we have within the PME 
program.
    That tyranny of time and increased demands, demands that 
flexibility. So we would look for continued engagement with 
that to understand where we need to go and move this ahead.
    Dr. Snyder. Well, thank you all for your time today, and 
for your service. And I am sure we will have some questions, 
either informally or formally for the record.
    If you have any other comments you would like to make, 
please feel free to send them over. And we will make them part 
of this, part of the record.
    Anything else, Mr. Wittman?
    Mr. Wittman. That is it, Mr. Chairman.
    Dr. Snyder. We are adjourned.
    [Whereupon, at 2:26 p.m., the subcommittee was adjourned.]


=======================================================================




                            A P P E N D I X

                             July 28, 2009

=======================================================================


              PREPARED STATEMENTS SUBMITTED FOR THE RECORD

                             July 28, 2009

=======================================================================

[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]

=======================================================================


              QUESTIONS SUBMITTED BY MEMBERS POST HEARING

                             July 28, 2009

=======================================================================

      
                   QUESTIONS SUBMITTED BY DR. SNYDER

    Dr. Snyder. There can be a tension between Service assignments 
necessary for an officer's career development and the needs of the 
joint force. From the joint force perspective, can you comment on how 
to best manage that tension? What is the optimal balance of Service and 
joint competency over a career? Given that current operational demands 
in Afghanistan and Iraq may continue for the foreseeable future, is 
there currently enough time in a 20-30 year career to optimize both?
    General Paxton. The department continues to make significant 
strides to ensure officer career development includes Service and joint 
competencies. As evidenced by the operations in Afghanistan and Iraq, 
joint warfare is the way the department operates. Some of the success 
in these operations is due in part to joint competencies becoming a 
significant part of Service officer development. Every officer is 
likely to be affected to some degree by joint considerations. As such, 
joint competencies must continue to become an inherent, embedded part 
of Service officer development.
    The department's strategic approach to managing joint officers 
provides the mechanism to adjust and evaluate the proper mix of 
Service/joint development in a 20-30 year career. The recent 
legislative changes to joint officer management and the implementation 
of the joint qualification system (JQS) allows the department needed 
flexibility to provide officers joint experiences and the ability to 
recognize the joint experience officers receive. The department can now 
recognize joint experience where it occurs and the intensity of the 
environment where the officer serves. The Services now have the 
flexibility to provide their officers joint experiences of a shorter 
duration than the normal three-year joint duty assignment. Officers 
serving in joint matters duties in Iraq and Afghanistan can gain the 
needed experience to earn the joint qualified officer designation based 
on 12 months service in these duties and completion of the required 
joint education. Limited Joint Professional Military Education (JPME) 
Phase II opportunities and scheduling difficulties creates some delays 
in the officer's joint development. The legislative authority to create 
a distance-learning component for JPME II would provide the department 
a much-needed flexibility to develop joint qualified officers.
    Dr. Snyder. Can you comment on how many general and flag officers 
are receiving waivers from attending the CAPSTONE course, the joint PME 
for newly selected one-stars? Why are they receiving these waivers? 
What impact does not attending the CAPSTONE course have on those 
officers' ability to operate in the joint arena? We have heard that 
CAPSTONE, in the past, may not have been as rigorous as it should have 
been. Can you comment on how you ensure that the CAPSTONE course is 
suitably rigorous and focused on appropriately targeted high-level 
strategic considerations? Currently, the National Defense University 
supports the CAPSTONE courses, but without dedicated faculty and 
resources specifically devoted to the CAPSTONE program. Is this 
arrangement, seemingly ad hoc, the long term solution or is a more 
structured arrangement under consideration?
    General Paxton. In the past 5 years, the Department granted 11 
CAPSTONE waivers against a total population of 606 required to attend 
CAPSTONE. The percentage of those receiving waivers over this 5 year 
period is less than 2%.
    These waivers were granted only to officers whom the Secretary of 
Defense determined had demonstrated a mastery of the learning 
objectives of the CAPSTONE course. As these officers were determined to 
have mastered the required joint learning, there was no discernable 
impact on the officers' ability to operate in the joint arena.
    CAPSTONE follows an executive education type approach, deemed 
appropriate to both the short duration (6 weeks) and non-degree 
character of the course. This approach recognizes that the principal 
student body (Active Component General and Flag Officers) possess, 
almost universally, both JPME I and JPME II experiences and 
credentials. The question of academic rigor must therefore be viewed in 
a different light than the 10-month resident JPME programs.
    CAPSTONE annually conducts a self-assessment under the supervision 
of the NDU President, as advised by both the Joint Staff J7 and the 
course's Senior Mentors--all retired 4-star G/FOs. All JPME programs 
routinely conduct such a self-assessment.
    The legislative designation (NDAA 2005) of CAPSTONE as the third 
tier in a sequenced approach to JPME effectively caused CAPSTONE to be 
viewed as ``JPME III.'' It was therefore determined that an external 
evaluation analogous to the Process for the Accreditation of Joint 
Education (PAJE) was required.
    Joint Staff J7 organized an independent review of CAPSTONE at the 
direction of CJCS. Catapult Consultants were hired to form the backbone 
of the effort and each Service provided a serving G/FO in augmentation. 
The review effort received the personal attention of the CJCS; ADM 
Mullen provided in person guidance up front, was kept informed along 
the way, and received the results in a personal session.
    The review found that CAPSTONE, as a baseline joint experience for 
G/FOs, met requirements as established in law and policy. The review 
found that there was no indication of any broad discontent with the 
course, finding that critique points were on the margins, and of no 
pattern. The review further noted that CAPSTONE lacked a mechanism to 
demonstrate achievement of course objectives.
    As a result of the CAPSTONE review, in June 2009, CJCS issued 
specific guidance to the NDU President. This guidance (copy provided to 
the O&I Staff) directed four adjustments: 1) a curriculum review to 
ensure linkages with other JPME courses (both above and below 
CAPSTONE); 2) a heightened focus on the interagency dimension--i.e., 
``How Washington works''; 3) the establishment of an end-of-course 
assessment mechanism; and 4) an adjustment in curricula content in the 
CAPSTONE Executive Development (Spouses) sub-course.
    The institutional architecture in place at NDU for the CAPSTONE 
course is categorically not ad hoc; the organizational construct of a 
Director, small operations staff and Senior Mentors is considered 
appropriate and consistent with the executive education model. The 
course methodology puts CAPSTONE Fellows in the presence of senior 
leaders inside and outside of the DOD and allows them to interact. This 
approach has been found effective in meeting the course objectives, 
drawing near universal support from Fellows, Graduates, Senior 
Leadership and the like.
    CAPSTONE is adequately resourced by NDU.
    Dr. Snyder. ``Professional ethics'' does not appear as a discrete 
learning area in the officer military education policy (the OPMEP). 
Should it be a part of joint education or is it left to the Services to 
teach? Can you comment on how professional ethics is made part of PME?
    General Paxton. Joint Publication 1 ``Doctrine of the Armed Forces 
of the United States'' \1\ establishes in Chapter 1 (Foundations) that 
U.S. military service is based on values that U.S. military experience 
has proven to be vital for operational success. It further notes that 
the values of joint service adhere to the most idealistic societal 
norms, are common to all the Services, and represent the essence of 
military professionalism. First among the five values, and further 
specifically marked as the foremost value, is Integrity.
---------------------------------------------------------------------------
    \1\ Joint Publication 1, Doctrine of the Armed Forces of the United 
States, 2 May 2007, w/Change 1, 20 March 2009.
---------------------------------------------------------------------------
    Integrity is understood to be `` . . . the cornerstone for building 
trust. American Service men and women must be able to rely on each 
other, regardless of the challenge at hand; they must individually and 
collectively say what they mean and do what they say.'' \2\
---------------------------------------------------------------------------
    \2\ Ibid; pg I-3.
---------------------------------------------------------------------------
    It is impossible to separate integrity from ethical behavior, 
especially for an officer corps to whom has been `` . . . reposed 
special trust and confidence in their patriotism, valor, fidelity and 
abilities.'' Inculcating ethical behavior is therefore a bedrock 
requirement, common to all developmental efforts, across the Services. 
Given the philosophy of the CJCS' Joint Officer Development Vision that 
``Joint officers are built upon Service officers'' \3\ it is completely 
appropriate that the Services have the primary responsibility to 
develop professionalism and professional ethics in their personnel.
---------------------------------------------------------------------------
    \3\ Pace, General Peter. ``CJCS Vision for Joint officer 
Development'' November 2005, page 1.
---------------------------------------------------------------------------
    The OPMEP however, is not mute on the subject of values and ethics. 
The Officer PME continuum notes that the continuum links each 
educational level so that each builds upon the knowledge and values 
(emphasis added) gained in the previous levels. \4\ Specific to the 
Precommissioning level of the continuum, the OPMEP focuses efforts to 
inculcating a foundation in `` . . . leadership, management, ethics 
(emphasis added), and other subjects necessary to prepare them to serve 
as commissioned officers.'' \5\ Both the General/Flag Officer and 
Senior levels of the Officer PME continuum JPME venues have joint 
learning objectives that go to the skills necessary to build and 
sustain ethical organizations and to further evaluate the ethical 
ramifications of specific historical and contemporary national security 
decisions. \6\
---------------------------------------------------------------------------
    \4\ CJCSI 1800.01d ``Officer PME Policy'' 15 July 2009, page A-A-1.
    \5\ Ibid; page A-A-3.
    \6\ Ibid; pages E-E-3; E-F-4; E-G-4; E-I-3; and E-K-2.
---------------------------------------------------------------------------
    The Joint Staff notes and concurs with the input of the various 
JPME institutions to the HASC O&I's similar query to them; in their 
totality, the answers further underpin that Ethics is a vibrant part of 
PME/JPME.
    Dr. Snyder. The Joint Advanced Warfighting School (JAWS) at the 
Joint Forces Staff College was created from within the existing faculty 
and facilities. Is this course currently adequately resourced by the 
National Defense University?
    General Paxton. The Joint Advanced Warfighting School (JAWS) is 
adequately resourced. There are no significant budget issues at this 
time. JAWS has dedicated classrooms which have the most advanced 
technology of any at JFSC. The school has adequate faculty to meet the 
mission; however there is no redundancy to allow for seamless turn-over 
of faculty or additional tasking of faculty to include research and 
writing time. Additionally, the Director must teach in order to meet 
the student to faculty ratio of 3.5:1.
    Dr. Snyder. The OPMEP requires the Academies to submit a report 
every three years. No one can find the 2006 version but your staff 
(DJ7) told us the inputs weren't very useful so they are deleting the 
requirement for the report for Sep/Oct 2009. Do you think that if the 
OPMEP is going to require something, it should be measured? Should the 
OPMEP dispense with the joint requirement fully if oversight is not 
provided at the joint level?
    General Paxton. The 2005 OPMEP (version 01c) required triennially a 
report from the Services concerning their overall assessment of how 
well joint learning objectives at the precommissioning and primary 
levels of education were addressed. The 2009 OPMEP (version 01d) 
eliminated the triennial requirement.
    The elimination of the triennial report requirement followed from 
the first (and only) experience in producing (the Services) and 
collecting/evaluating (Joint Staff J7) the report, which occurred 
between October 2006 and June 2007. The inputs collectively exposed a 
flawed approach in that unverified self-assessments are of diminished 
value as an oversight mechanism. Further, that the process proved 
burdensome administratively to all participants further increased 
concerns as to the value of approach. Accordingly, the working group 
from the Military Education Coordination Council (MECC) that produced 
the OPMEP 01d version recommended elimination of the requirement.
    The data collected in 2006 and 2007 was of varying quality and 
coverage, but broadly exposed that multi-year undergraduate 
precommissioning programs (Service Academies and ROTC) reported meeting 
the joint learning areas. Short-duration precommissioning programs 
(such as OCS, OTS, etc.) inputs ranged from ``meeting'' the 
requirements (AF OTS, Army OCS) to ``partially meeting'' (Navy OIS, 
OCS) to ``not meeting'' (USMC OCS). Results from the Primary venue also 
varied: ``meeting'' were the Army's Captains Course and BOLC III; the 
Marine Corps' Expeditionary Warfare School; the Air Force's Squadron 
Officers College, Air and Space Basic Course and Squadron Officers 
School; and the Navy's Primary PME Course (DL), the Surface Warfare 
School's Division and Department Head courses, the Naval Supply School 
and Naval Intelligence Basic courses. Next, the Navy reported that its 
Submarine Officer Basic course ``partially'' met requirements. Last, 
the Navy reported that its Naval Explosive Ordnance Disposal School and 
Marines reported its Officer Basic Course as not meeting requirements.
    There is a value in establishing joint learning early in a career 
and the joint learning areas at the precommissioning and primary levels 
of education have been purposely maintained in the 2009 version of the 
OPMEP. This said, the question of how much oversight of the delivery of 
precommissioning and primary joint learning is appropriate and 
accordingly what method of oversight serves best, has yet to be 
resolved. These questions are slated to be addressed by the MECC in the 
coming year.
    Dr. Snyder. There was an Army decision to send at least 50% of each 
Army 0-4 year group to in-residence ILE at Leavenworth. What is the 
impact on OPMEP fulfillment/accreditation? What is the impact on 
education quality in terms of number and joint faculty/student mix? 
What is the impact on other Services wanting to send faculty and 
students there given the OPMEP accreditation implications?
    General Paxton. The Joint Staff understands that the Army's intent 
for resident ILE is for approximately 76% of its eligible officers to 
attend a resident JPME I program (to include other service venues). The 
remainder is to attend a non-resident program. This intent 
fundamentally posits an increase in the number of officers from all 
Services attending the ILE program at Fort Leavenworth.
    The increase in the size of the resident population at Leavenworth 
has caused CGSC to be out of compliance with mandated OPMEP standards 
regarding student mix. Currently, 11 of the 92 staff groups 
(approximately 12%) now in session \1\ have only 1 officer from either 
the Air Force or Sea Services, vice the mandated 1 from each of the 
other Services. 176 students, of which approximately 154 are U.S. 
officers (143 Army) are negatively effected. These students are not 
positioned to fully receive the desired cross-service affected learning 
experience.
---------------------------------------------------------------------------
    \1\ Courses 09-02 and 10-01 in aggregate.
---------------------------------------------------------------------------
    Army mitigation efforts (to include replacing the missing U.S. 
military officer with an interagency representative) are not considered 
adequate; the intent of the mandated service mix goes to establishing 
jointness amongst the Services, not the interagency. This is especially 
true at the intermediate level where officers are transitioning from 
tactical perspectives, but are still very much developing as Service 
members. Concentrating CGSC's Other Service military faculty (17 total 
of which 7 are from the Sea Services) to the lacking groups is also 
inadequate both in numbers and effect. First, the number of Sea Service 
Faculty is less than the number of Seminars without Sea Service 
representation. Second, the concentration of the other service faculty 
in 12% of the staff groups leaves the remainder of the staff groups 
with diminished access to other service faculty.
    The Army's resident and non-resident JPME I programs were last 
accredited in February, 2008. Accordingly, they are not due a PAJE re-
certification until 2014; this said, the OPMEP allows for CJCS to re-
visit certification as need dictates. Given the issue, it is likely 
that such a revisit will occur in the Fall, 2009. A negative outcome 
from such a re-visit, especially if accreditation were to be withdrawn, 
would have a dramatic impact on other service participation at CGSC.
    Dr. Snyder. The joint schools feel as if they are orphans in the 
budget wars, that they don't have a champion like the Services do. Can 
you reassure us that the joint/DOD budget process understand the value 
that you and the Chairman put on fully funding, specifically, the 
National War College, Industrial College of the Armed Forces, and Joint 
Forces Staff College?
    General Paxton. The Chairman and I take every opportunity to 
emphasize to Department organizations involved in the budget process 
the value we place on Joint Professional Military Education (JPME).
    The vast majority of JPME funding is contained in the National 
Defense University's (NDU) budget. On behalf of the Chairman, I endorse 
NDU's budget submission each year and forward it to the OSD 
Comptroller. Further, Joint Staff leadership endorses to Department 
leadership the unfunded requirements NDU submits for Department review 
through both the annual Program and Budget Review process as well as 
the Omnibus reprogramming request sent to Congress for consideration. 
Wherever the Programming, Planning, Budgeting, and Execution system 
provides an opportunity for us to do so, we ensure DOD organizations 
understand the importance we place on JPME. In fact, we have codified 
our support of JPME in a CJCS Instruction dealing with JPME and NDU 
matters.
    Dr. Snyder. Do you feel the officer management system for your 
Service complements the PME/JPME system? We've repeatedly heard the 
critique that they are not closely aligned. Are there policy changes 
that need to be made so officers have time to attend the requisite 
schools and complete key developmental assignments for promotion 
purposes, but more importantly for leader development purposes?
    General Caldwell. Currently officers are being held, by the Defense 
Officer Personnel Management Act (DOPMA), to a rigid time-based 
promotion system. Too often professional development finds itself in 
stiff competition with the heavy demand of Army requirements. 
Inevitably, meeting Army requirements wins out and we try to ``work 
in'' professional development. While it is considered essential to the 
development of an officer, it is not always mandatory. Meeting specific 
gates for promotion has become the driving factor in an officer's fixed 
career timeline. While DOPMA was sufficient during a time of peace with 
relatively fixed assignment patterns, its lack of flexibility hinders 
today's Army's ability to balance increasing professional developmental 
demands while maintaining a continuously deployed force in a dynamic 
and challenging time. To bring change we would recommend modifications 
to Title 10 (DOPMA) that will add flexibility in the promotion timeline 
while preserving the goodness of ``up and out.'' The Department of 
Defense (DOD) should move away from a rigid time-based promotion system 
to a flexible, ``window of time'' based system. This will allow the 
Army, and the sister services, to ensure that its officers can achieve 
the desired competencies to be effective senior leaders, give them the 
requisite amount of time necessary to achieve those competencies, all 
while maintaining their sanity and their families.
    Dr. Snyder. The Chairman uses a Military Education Coordination 
Council (MECC) in a formal process to ``build'' the Officer 
Professional Military Education Policy (the OPMEP). Recognizing the 
Service Chiefs' prerogatives in terms of ``managing the quality and 
content'' of Service-specific curriculum at their PME institutions, 
does your Service have a similar formal process for determining and 
integrating Service-specific curriculum throughout your school system, 
and how does that process tie into your overall leader development 
strategy?
    General Caldwell. Yes, the Army has a formal process similar to the 
Military Education Coordination Council (MECC). The Training and 
Doctrine Command (TRADOC) Common Core process is documented in TRADOC 
regulation 350-70. The process provides streamlined, consolidated, and 
standardized training development (TD) policy and guidance for the TD 
process, product development, management, planning, and resourcing, as 
well as student testing (test design, development, validation, 
administration) and test management.
    This process surveys the Army for input on potential new content, 
modification of current content, or deletion of outdated content. A 
board evaluates recommendations, selects tasks and subject areas for 
training and education in Professional Military Education (PME) and 
ensures vertical and horizontal integration across officer and enlisted 
cohorts as well as between Army components. Training and education 
content is continually updated through Needs Analysis. The Needs 
Analysis addresses training and education solutions to Soldier 
performance deficiencies and for future capabilities that require 
changes to the way the Army trains and educates its Soldiers and 
leaders.
    The process ensures that outcomes identified in the Army Leader 
Development Strategy (ALDS) are addressed in the PME common core. The 
TRADOC Commander is the approval authority. Branch proponents use a 
similar process to determine branch specific training and education 
requirements, with the branch chief as the approval authority.
    Dr. Snyder. We have heard that officers are arriving at the 
combatant commands and joint task forces for joint duty assignments, 
even for operational planning billets, without having completed JPME 
II. Some combatant commanders have issued policies barring their staff 
officers' attendance at the 10-week JPME II course. They believe the 
Services should be sending officers who are fully qualified and ready 
to serve in their assignments, rather than having the combatant 
commander forced to give up these officers for 10 weeks. Can you 
comment on what is causing this to happen? Isn't this detrimental to 
the force and to the officers involved? Can you comment on the utility 
of officers attending the JPME II ten-week course after completing or 
late into joint assignments? It's perceived as a perfunctory 
requirement (in the nature of ``square-filling'') necessary for 
promotion, instead of as a useful part of professional development.
    General Caldwell. Army policy is to send officers slated for joint 
positions to Joint Professional Military Education (JPME), phase II 
enroute to their joint duty assignments. Due to the limited number of 
seats, no more than 79, available for each class, coupled with the 
critical timing of many senior officer moves, a number of the officers 
are not able to attend JPME II prior to arriving at the combatant 
command. This is particularly true during the summer months when the 
largest numbers of military personnel relocate. Today's high 
operational tempo also makes it exceptionally difficult at times to 
release officers from the theaters of operation to provide them with 
the professional military education that is important to future 
effectiveness in strategic assignments. Sending officers at a later 
date, regardless of when, still enhances their professional education, 
and can even offer added value to an officer's development by adding 
current doctrine and practice to their previous exposure to joint 
concepts from their previous assignment to a joint position.
    Dr. Snyder. The Skelton Panel considered faculty as the determinant 
factor in quality education. What policies do your Services have to 
ensure that the highest quality military faculty is assigned to the 
Service and joint PME institutions including to your other Service 
counterparts' institutions? What policies do you have in place 
concerning faculty follow-on assignments?
    General Caldwell. The Army Human Resource Command (HRC) in 
conjunction with the Combined Arms Center (CAC) at Fort Leavenworth, 
Kansas and the U.S. Army War College (USAWC) at Carlisle Barracks, 
Pennsylvania, outlines strict criteria for the faculty prior to 
assignment as instructors. CAC and USAWC list in detail the 
requirements necessary to be considered for an instructor and then HRC 
nominates officers against the positions. At a minimum the criteria 
contains a requirement for recent deployment experience and completion 
of the officers' Key and Developmental assignment. Due to the current 
demands on the force, both the quality and the quantity of who is 
available require balancing on the part of HRC. It is to the benefit of 
our Army, the services and the officer students to provide the best 
quality officers as our instructors. Officers must be accepted by CAC 
or USAWC to be assigned as instructors, although those available for 
consideration are limited today. While there is no set policy in place 
for an instructor's follow-on assignment, HRC usually utilizes their 
skills in deploying units or other assignments that will take advantage 
of the unique skills that they have acquired as an instructor.
    Dr. Snyder. ``Professional ethics'' does not appear as a discrete 
learning area in the officer military education policy (the OPMEP). Can 
you comment on how professional ethics is made part of PME?
    General Caldwell. Professional ethics is a critical component of 
our professional military education. It is the basis of who we are as a 
profession.
    The planned sequence for professional military education (PME) 
integration is Basic Combat Training (BCT), the Non-Commissioned 
Officer Education System (NCOES), the Basic Officer Leaders Course 
(BOLC), Intermediate-Level Education (ILE), and the Civilian Education 
System (CES). Each moral development redesign will address Active 
Component and Reserve Component courses simultaneously. The objective 
``supporting socialization of the professional military ethic across 
the Army culture and profession'' will require spiral moral development 
in units as the courses are redesigned.
    Beyond the preparation of these junior officers and non-
commissioned officers, at the Command and General Staff College (CGSC) 
ethics are taught as part of the leadership curriculum. A portion of 
this instruction deals specifically with the tenets of ethical 
organizations, while the remainder utilizes case study methodology to 
put students into ethically challenging situations to evoke responses 
and require critical thought. This thread of ethical decision-making 
runs throughout the leadership instruction for ILE.
    General Casey designated the United States Military Academy (USMA) 
as the Army Center of Excellence (COE) for the Professional Military 
Ethic (ACPME) in April 2008. In March 2009, USMA became the Force 
Modernization Proponent for Ethics and Moral Development with the 
mission of assessing the professional military ethic of the force, 
integrating knowledge of the professional military ethic, accelerating 
moral development in individuals and units, and supporting 
socialization of the professional military ethic across the Army 
culture and profession. To accomplish these objectives, during fiscal 
years 2008 and 2009 ACPME personnel interviewed two hundred and fifty 
Soldiers who recently returned from combat and conducted fourteen 
separate studies; published nine articles on moral development and the 
professional military ethic in Army Magazine, Army Communicator, Army 
Times, and Joint Forces Quarterly; developed eighty standard case 
studies, fifteen video case studies, an interactive video learning 
simulation, and an ethical module of the America's Army video game.
    To support the objective of assessing the professional military 
ethic of the force, ACPME conducted a curriculum assessment of ethics 
related instruction currently conducted across the Training and 
Doctrine Command (TRADOC) and has begun analyzing the moral development 
``skill level'' required for each rank.
    Dr. Snyder. The ten-week Joint Combined Warfighting School (JCWS) 
at the Joint Forces Staff College was originally designed as an 
operational planning course for Service intermediate level school 
graduates (i.e., majors and lieutenant commanders) on their way to a 
joint assignment. The JCWS has seen a significant number of more senior 
officers (e.g., colonels and Navy captains) and officers who have 
already completed a joint assignment in attendance. What changes need 
to be made to your officer management policies and practices to avoid 
what appears to be a misuse of the course, making its completion a 
perfunctory exercise only needed in order to be competitive for 
promotion to general or flag officer?
    General Caldwell. We make every attempt to get our majors to the 
Joint Combined Warfighting School and will continue do so as often as 
possible. However, the Army has experienced, and will continue to 
experience for the foreseeable future, a shortage of several thousand 
majors and captains across our force. The high demand for these 
officers generated by Army modular capability growth, and overall 
manpower growth to meet the demands of the operational theaters and our 
generating forces affects our ability to release some officers to this 
useful training. Officers who have attended after their joint 
assignment are part of the group that was unable to meet the necessary 
timing/availability when they were reassigned. The other challenge we 
have faced in getting officers fully joint qualified is the 
accreditation of the Senior Service College (SSC). Until 2007, the U.S. 
Army War College (USAWC) was not a Joint Professional Military 
Education (JPME) II producing course. The small number of colonels that 
are now attending the Joint Combined Warfighting School are those 
senior officers who, for a variety of reasons, were unable to attend 
JPME II producing courses at the appropriate time or went to Senior 
Service Schools that were not JPME II producing courses. The Army is 
working to make the best use possible of all JPME to ensure that we 
meet our obligations to support the Joint warfight.
    Dr. Snyder. We've heard concerns expressed by military students 
that the quality of the participating military department civilians is 
well below that of the military personnel. How does your military 
department select its civilian students for intermediate and senior 
level PME schools? Is there a process analogous to a selection board?
    General Caldwell. Civilian and military students bring different 
sets of experiences to the U.S. Army War College (USAWC) seminar. Few 
civilian students will have been exposed to the same types of 
experiences as military students. Civilians are less likely to have 
moved or changed jobs as frequently, been deployed to an active 
theater, or been involved in the planning and execution of operations--
resulting in less experience with respect to major portions of the 
curriculum. Civilian students bring different perspectives on the 
curriculum and frequently offer wider world views on less military-
technical issues. The integration of civilian students creates 
professional development for them, and in turn, adds to the military 
Officer's professional development; both military and civilian students 
need a better understanding of their counterparts.
    Civilians selected for senior level professional military education 
(PME) go through a multi-level screening. The nomination process starts 
with an annual Army-wide solicitation. Interested applicants must meet 
a strict list of eligibility requirements, including completion of Army 
leadership development training know as the Civilian Education System 
(CES), a minimum of a baccalaureate degree from an accredited 
institution and demonstrated leadership experience. Applicants must 
obtain a letter or recommendation from a general officer (GO) or Senior 
Executive Service (SES) within their chain of command for their package 
to be forwarded to their respective command headquarters. Each command 
establishes internal deadlines for receipt of applications, holds a 
selection board composed of command GO and SES personnel and generates 
an Order-of-Merit List (OML) with their recommendations to the Civilian 
Human Resources (HRC) Agency, Training Management Office (CHRA-TMO), 
which manages the Army-wide PME selection board. CHRA-TMO arranges for 
six GO and SES board members, ensuring that appropriate demographic 
representation is reflected in the board membership. The civilian PME 
selection board follows a memorandum of instruction (MOI) whose 
guidelines are reviewed and approved by legal counsel, establishing an 
OML for all quotas. The selection board results are further reviewed by 
legal review for compliance with the MOI before submission of names to 
Senior Service Colleges.
    Dr. Snyder. Is PME completion career-enhancing for military 
department civilians? If so, how? We've heard that after PME 
completion, they often return to the same job with the same level of 
responsibility with virtually no recognition of what these civilian 
students gained from the PME experience. The Air Force apparently has 
at least the beginnings of a different program. Can you describe that 
and whether you think it could serve as a benchmark?
    General Caldwell. PME completion is a significant element in 
distinguishing most Army civilian senior leaders. The Civilian Human 
Resources Agency, Training Management Office (CHRA-TMO), manages the 
Army-wide Graduate Placement Program (GPP) which seeks to match PME 
graduates with enterprise-level positions, taking advantage of the 
skills acquired. The GPP was established in 2003 as a result of a Vice 
Chief of Staff memorandum directing placement of civilian PME graduates 
similar to that of military PME graduates. Placement rates for PME 
graduates all exceed the 90th percentile. For 2009, 92% were placed in 
new positions requiring PME knowledge and skills with 8% returned to 
their former position. For 2008, 97% were placed and 3% were returned 
to their previous assignment. 2007 and 2006 witnessed 94% placement 
rates.
    The Central Talent Management Office (CTMO) was established in 
early 2009 to manage the Army Senior Civilian workforce. CTMO goals 
include: providing civilians the opportunity for assignments with 
multiple commands and educational opportunities, cultivate senior 
civilian leaders with a joint mindset through joint assignments, 
develop senior leaders who are comfortable operating in a global, 
multicultural environment and lay the groundwork for a program that 
will develop interchangeable senior leaders. This program will improve 
succession planning through forecasting and knowledge transfer as well 
as reduce the loss of productivity associated with under-lap. 
Additionally, this approach will minimize the return of graduates to 
their former positions. There is no question that we can do better in 
this entire process for the vast majority of our Army civilian 
workforce. We recognize there are shortfalls and are working to improve 
our system.
    We will contact the Air Force to determine if their program has 
aspects that are readily applicable for the Army, and to learn from 
what they have done for their civilian development program.
    Dr. Snyder. We've seen that there are very few in-residence PME 
billets available to Reserve Component (RC) officers, notwithstanding 
their significant contribution to current operations in Afghanistan and 
Iraq. When PME billets do become available, it can be complicated for 
RC officers to fill them. The slots are often offered at the last 
minute, i.e., once it becomes clear that active duty personnel will not 
be able to fill those seats. In addition, attendance will require 
Reserve and Guard officers to take ten months time away from their 
civilian careers and often will require relocation. What is your 
Service doing to ensure that its RC officers undergo the leader 
development necessary to fully integrate with their active duty 
counterparts in joint operations?
    General Caldwell. For the reasons acknowledged above, and because 
officer professional military education (PME) courses generally run 
from six months to one year, while the Army is able to send some 
reserve component (RC) officers, it is very difficult for most RC 
officers to attend PME courses in residence. There are multiple options 
for RC officers to undergo leader development. The most challenging 
development is at the major and colonel level. All majors have the 
option to enroll in the distance learning Intermediate Level Education 
(ILE) at their convenience or compete for selection for resident 
instruction. RC officers at the lieutenant colonel and colonel level 
must complete for selection for resident or Distance Education Program 
(DEP) Senior Staff College (SSC) education. Considerable effort has 
been made in recent years to ensure that these non-resident PME courses 
are up to date and highly relevant to the contemporary operating 
environment faced by today's deploying Soldiers. In addition, the non-
resident ILE common core course includes all of the Joint PME learning 
areas. Hence, all RC Officer who complete the non-resident course earn 
the same Joint Professional Military Education (JPME), phase I credit 
as their peers who attend the resident course.
    The Chief of the Army Reserve (CAR) receives an annual allocation 
for the resident and DEP versions of the SSC from the Training and 
Doctrine Command (TRADOC). In addition, the CAR receives an annual 
allocation for resident ILE. Based upon the number of seats, the 
Department of Army Secretariat conducts the Professional Development 
Education (PDE) Board and publishes a list of primary and alternate 
candidates to attend the versions of these courses. Human Resources 
Command (HRC), St. Louis, manages the Order-of-Merit (OML) lists, which 
are used throughout the process and not violated for convenience of 
individual Soldiers or commands. Allocation for resident ILE and SSC, 
while not excessive, is proportional to the Active Component (AC).
    Dr. Snyder. There was an Army decision to send at least 50% of each 
Army 0-4 year group to in-residence ILE at Leavenworth. What is the 
impact on OPMEP fulfillment/accreditation? What is the impact on 
education quality in terms of number and joint faculty/student mix? 
What is the impact on other Services wanting to send faculty and 
students there given the OPMEP accreditation implications?
    General Caldwell. The Army, by policy, provides an Intermediate 
Level Education (ILE) education to all active duty majors and the 
opportunity for the same level of education to National Guard and 
Reserve majors through distance learning programs. For many years 
selection to attend resident Command and General Staff College (CGSC) 
was made by a Department of Army (DA) Selection Board. This board 
selected approximately 50 percent of the eligible Officers to come to 
resident CGSC, while the remainder was required to complete the course 
by correspondence. All Officers were required to complete CGSC, 
resident or non-resident, to remain competitive for promotion to 
Lieutenant Colonel.
    In 2004, the Army made the decision to take a different direction 
in selecting students to attend CGSC. There were a number of reasons 
for changing this policy. First, if CGSC was needed for success for 
assignments as a major and beyond, why should the Army provide less 
than half of the Officers the requisite in resident education? 
Secondly, the operational environment was growing more complex 
increasing the demand on education for leader development. Primarily 
for these reasons the Army moved forward to implement universal 
resident ILE for all active duty majors.
    Universal ILE has two parts: a common core and a credentialing 
course. The current 10 month resident CGSC experience consists of two 
courses: a 14-week core course which emphasized joint educational 
outcomes, and a 28-week Advanced Operations Course. It was setup so the 
resident course was primarily oriented toward branch officers--those 
officers who serve in duty positions directly related to their basic 
branch (infantry, armor, artillery, etc.), while most officers serving 
in specialty branches and career fields attend one of our resident 
satellite campuses where they take the 14-week Core Course and then 
complete a follow-on credentialing course based on their unique 
specialty.
    Under current policy, approximately 75 percent of active duty 
officers should come to Fort Leavenworth for CGSC, but the throughput 
capacity to accommodate this was never established. Also, given today's 
operational demand the Army simply cannot man the operational force and 
have 75 percent of a year group attend CGSC. This has resulted in a 
backlog of officers waiting to attend the 10 month and 4 month resident 
courses. The Army is currently reexamining this issue as we do have 
unfilled seats in each resident program due to the operational force 
not being able to release majors to attend their PME. What we have also 
found is that an unintended consequence of this policy has been the 
demand for increased student numbers from our sister services to 
support the increased number of staff groups.
    Educationally, the concept of universal ILE for all majors is an 
intriguing debate for the Army. Currently, it is unsupportable due to 
the operational demands of the force, yet we also recognize the 
critical importance of education. We therefore are working diligently 
to find the most optimal solution to balance the competing demands.
    The impact of the Army decision to increase the number of students 
attending the resident ILE at Fort Leavenworth has raised the need for 
more non-host military students to meet the requirement of 1 Air Force 
(AF) and 1 sea service student in each staff group. The Army requested 
sufficient joint officers to meet our growing number of staff groups, 
but the sister services have been unable to support our request. The 
last agreed to number of sister service officers was 80 per year, while 
at full capacity the Army ILE requirement would be for at least 96 
officers. We are currently short 1 AF and 9 sea service officers. The 
Education Branch of the Joint Staff is aware of this shortfall, and we 
have proposed what we believe is a solution to this shortfall. We have 
worked diligently over the past two years to increase our Interagency 
(IA) student participation. This year we have 18 IA students in the 10 
month resident program. This number of students from the Joint, 
Intergovernmental, Interagency and Multinational (JIIM) perspective 
more than mitigate the shortfall of the joint officers. We have 
proposed and do maintain the IA students should be part of the 
accreditation process - it's how we truly operate around the world 
today and will continue to do so in the 21st century. CGSC has taken 
actions to mitigate the lack of sister service students in these staff 
groups, but recognizes that this does not bring us into compliance with 
Officer Professional Military Education Policy (OPMEP) standards. Joint 
accreditation is an absolute must for CGSC to keep its sister service 
students. Resolution of this issue will require senior level Department 
of Defense (DOD) decisions.
    Dr. Snyder. Do you feel the officer management system for your 
Service complements the PME/JPMB system? We've repeatedly heard the 
critique that they are not closely aligned. Are there policy changes 
that need to be made so officers have time to attend the requisite 
schools and complete key developmental assignments for promotion 
purposes, but more importantly for leader development purposes?
    Mr. Lutterloh. The Navy officer management system complements the 
PME/JPME system through seeking to satisfy the educational requirements 
of eligible officers when and where best introduced into their 
individual and community specific career paths. Navy officer career 
paths generally provide sufficient time between operational or 
milestone assignments for Service College eligible officers to enhance 
their skills through resident PME/JPME courses at various points in 
their careers. Every effort is made to satisfy these requirements 
through resident course attendance, but not all eligible officers get 
this opportunity due to competing requirements. Where transfer timing 
or community specific manning requirements preclude the ability to send 
eligible officers to resident courses, the Navy has compensated through 
increasing the available opportunities to achieve PME/JPME in non-
resident education programs. These programs (Fleet Seminar Program, 
Web-Enabled Program, and CD-ROM Program) are part of Naval War 
College's College of Distance Education and provide flexibility for 
those officers that are unable to attend resident courses to gain 
concurrent education while fulfilling their career milestone 
assignments and meet demanding operational schedules. Balancing the key 
assignments with PME/JPME is unique to each officer's career.
    No policy changes are recommended at this time.
    Dr. Snyder. The Chairman uses a Military Education Coordination 
Council (MECC) in a formal process to ``build'' the Officer 
Professional Military Education Policy (the OPMEP). Recognizing the 
Service Chiefs' prerogatives in terms of ``managing the quality and 
content'' of Service-specific curriculum at their PME institutions, 
does your Service have a similar formal process for determining and 
integrating Service-specific curriculum throughout your school system, 
and how does that process tie into your overall leader development 
strategy?
    Mr. Lutterloh. In October of 2008, the Navy implemented the 
Advanced Education Review Board (AERB) for oversight of Navy's 
education strategy, policy, resources, and execution including 
professional military education. The AERB process is based on the MECC 
model with a standing working group and sub-working groups as needed. 
The Vice Chief of Naval Operations (VCNO) heads the AERB and acts as 
the CNO's executive agent for advanced education. He is tasked with 
ensuring education policy is integrated across the U.S. Naval Academy 
(USNA), Naval Reserve Officer Training Corps (NROTC), the Naval War 
College (NWC), and the Naval Postgraduate School (NPS), and with 
ensuring education strategy is appropriately resourced. The AERB 
monitors policy and will direct policy changes to advanced education 
including professional military education as required.
    Since March of 2005, the President of the NWC has been responsible 
for the content, its development, and the measures of effectiveness 
that go along with this responsibility for Navy Professional Military 
Education (PME). The goal is to provide the Navy's Total Force with a 
standardized, comprehensive understanding of the Navy and its 
warfighting capabilities through a PME Continuum. For officers, pre-
commissioning PME had been and continues to be successfully conducted 
by the USNA and the Navy Education and Training Command's (NETC) NROTC 
and officer commissioning or indoctrination programs. They developed a 
new program for primary-level professional military education and 
desegregated the intermediate and senior-level programs at the NWC. In 
May 2005, the VCNO approved the educational outcomes developed for the 
senior, intermediate, and primary programs that had been developed by 
the NWC faculty and staffed with the Navy's senior community and 
operational flag leadership.
    The NWC faculty then determined the curricular content necessary to 
deliver the approved, educational outcomes for the senior and 
intermediate programs. For the primary-level program, NWC faculty 
members worked with key representatives from the operating fleet and 
the Navy's communities to determine the curricular content to achieve 
the desired learning outcomes. The NWC continually assesses the 
effectiveness of its educational programs including the validity of the 
educational outcomes which underlie every level of the PME Continuum. 
When changes should be required for those outcomes, the AERB process 
will be used to examine and, if judged prudent, approve and implement 
those changes. Sustaining alignment for the Navy's PME Continuum is 
principally the responsibility of the NWC and its faculty for the 
Navy's primary, intermediate, senior, and flag officer courses. The 
USNA and the NETC continue to deliver and assess the pre-commissioning 
programs.
    Service-specific guidance is provided to the USNA and the NETC for 
accession-level knowledge, skills, and abilities of leaders in the Navy 
and Marine Corps. The NWC, charged with the remainder of the officer 
PME Continuum, is tasked with developing operational and strategic 
level leaders as part of its overall mission. Curricular elements aimed 
at building operational and strategic-level leaders are embedded 
throughout the primary, intermediate, senior, and flag-level courses. 
Professional military education at each of these levels involves 
developing habits of thought, transferring broad bodies of professional 
knowledge, maritime and joint, and developing key attributes, such as 
critical thinking, effective communication, risk management, and change 
management.
    The Advanced Education Review Board, the curricular review process, 
the presence of senior Naval leadership across campus, and thesis 
requirements ensure every curriculum at NPS is tied to a concrete fleet 
requirement and that NPS graduates will return to the fleet armed with 
an education which prepares our officers to tackle the Navy's most 
pressing and challenging issues.
    Dr. Snyder. We have heard that officers are arriving at the 
combatant commands and joint task forces for joint duty assignments, 
even for operational planning billets, without having completed JPME 
II. Some combatant commanders have issued policies barring their staff 
officers' attendance at the 10-week JPME II course. They believe the 
Services should be sending officers who are fully qualified and ready 
to serve in their assignments, rather than having the combatant 
commander forced to give up these officers for 10 weeks. Can you 
comment on what is causing this to happen? Isn't this detrimental to 
the force and to the officers involved? Can you comment on the utility 
of officers attending the JPME II ten-week course after completing or 
late into joint assignments? It's perceived as a perfunctory 
requirement (in the nature of ``square-filling'') necessary for 
promotion, instead of as a useful part of professional development.
    Mr. Lutterloh. There are 2,199 non-critical Navy joint billets 
(JD1) and an additional 127 billets that are coded joint critical 
(JD2). There are no prerequisites to fill non-critical billets. 
Critical joint billets must be filled by Joint Qualified Officers or 
officers on a waiver. Some of the joint billets are also coded for 
planner qualifications.
    The requirements for a Joint Qualified Officer are:
        <bullet>  JPME Phase I
        <bullet>  JMPE Phase II
        <bullet>  Previous joint duty assignment
    For those officers targeted for joint critical billets the Navy 
makes every effort to assign Joint Qualified Officers or schedule and 
complete JPME Phase II prior to reporting. Navy also works to get JPME 
II en route to the non-critical JD1 billets as well. Due to assignment 
timing challenges (control grade officer inventory, JPME Phase II 
classes, incumbent's rotation dates, prospective gain's rotation dates, 
and the Joint Qualified Officer waiver process) completion of JPME 
Phase II prior to reporting is not always possible.
    Ideally the Navy would send Joint Qualified Officers to all 
critical joint billets. However, the need for our front-running 
officers, our future leaders, to maintain tactical and operational 
proficiency, gain leadership and command experience, and pass 
warfighting skills to our junior members competes with JPME II and, in 
limited cases, precludes this education enroute.
    In these cases, obtaining JPME Phase II on the backside of joint 
assignments remains valuable for future Joint or Navy operational staff 
assignments whether in control grade or flag billets.
    Dr. Snyder. The Skelton Panel considered faculty as the determinant 
factor in quality education. What policies do your Services have to 
ensure that the highest quality military faculty is assigned to the 
Service and joint PME institutions including to your other Service 
counterparts' institutions? What policies do you have in place 
concerning faculty follow-on assignments?
    Mr. Lutterloh. The War Colleges' staffs are comprised of both 
civilian and military personnel. The civilian staff provides continuity 
and a rigorous theoretical approach while the military staff brings 
current and relevant experience to the classroom.
    The Navy uses the Military Personnel Manual 1301-202, Officer 
Special Assignments--Nominative Billets/Nomination of Officers, (dated 
September 19, 2008) as guidance for nominating officers for faculty 
positions at the Naval War College, National Defense University, and 
other service colleges. It requires that individuals being assigned as 
service college faculty be informally ``proposed'' to the gaining 
command. The service college is then able to ``screen'' the officer's 
qualifications prior to reporting. If the officer does not possess the 
credentials they are looking for, discussions on alternate candidates 
begin between Navy Personnel Command and the Service College.
    Quality of faculty members going to Professional Military Education 
institutions is assured based on the rank requirements and the very 
nature of the officers assigned to a War College Faculty. Billets for 
these positions are primarily coded for commanders or captains with a 
limited number of lieutenant commanders (11).
    At Service War Colleges, 46% of Navy faculty billets are filled by 
post-command commanders/captains (40 of 101) or post-major-command 
captains (6 of 101). These individuals go through statutory selection 
boards and administrative career screening boards, which select 
officers to promote in rank and command ships, submarines, and 
squadrons. These are the Navy's best and brightest.
    There are no policies in place concerning faculty follow-on 
assignments. Follow-on assignments vary by community (Aviation Warfare, 
Surface Warfare, Submarine Warfare) depending on current fleet demand 
signal and individual desires.
    Dr. Snyder. ``Professional ethics'' does not appear as a discrete 
learning area in the officer military education policy (the OPMEP). Can 
you comment on how professional ethics is made part of PME?
    Mr. Lutterloh. Professional ethics is an integral component of the 
Navy's Professional Military Education (PME) Continuum. At each level 
of PME, professional ethics is a continuing theme that is studied and 
explored. The PME curriculum properly builds toward life-long learning 
in the field of professional ethics. The Navy believes effective 
leaders must be steeped in professional ethics and exhibit duty, honor, 
integrity, moral courage, dedication to ideals, respect for human 
dignity, exemplary conduct, teamwork and selfless service. Accordingly, 
ethical issues are addressed at every level of Navy PME as detailed 
below.
    Ethics lessons are incorporated into the Introductory Enlisted PME 
course designed for E-1 to E-4, the Basic PME course targeted at E-4 to 
E-6, and into primary PME course for E-7 to E-8 and O-1 to O-3.
    For intermediate and senior-level resident students at the Naval 
War College (NWC), the core academic program includes a year-long 
Professional Military Ethics Program, with the theme, ``Enduring 
Ethical Dilemmas: Rights and Responsibilities of the Professional 
Military Officer.'' The program provides a series of events that allow 
the student body to discuss relevant issues associated with the 
professional military ethic as it relates to their classroom studies. 
The NWC non-resident program provides an opportunity for a focus on 
professional ethics akin to the ethics program for resident students. 
Resident programs at the NWC are also augmented by a series of elective 
courses taught within the leadership area of study. The marquee 
elective course is ``Foundations of Moral Obligation: The Stockdale 
Course''.
    Also, senior-level students take the Senior Leadership Seminar 
(SLS) sub-course of National Security Decision Making. In one session, 
devoted to civil-military relations and the profession of arms, the 
students discuss ethical challenges and issues routinely faced by 
national strategic leaders. SLS examines more than a dozen biographical 
case studies of successful and failed strategic leaders. Each year, 
seven to nine senior course students are selected for the Stockdale 
Group to conduct advanced research and analysis resulting in specific 
recommendations to improve the manner in which U.S. Navy officers are 
developed for senior leadership positions. The current research is 
using the lens of competencies, perspectives and values in examining 
the critical development of those officers. Professional ethics is a 
critical component of values development and will be a focus of the 
research over the coming years.
    The mission of the U.S. Naval Academy (USNA) is to educate, train, 
and develop future Navy and Marine Corps officers.'' The ``standards'' 
set by USNA graduates are embodied in the attributes of character, 
ethics and leadership and serve as the benchmarks for the core 
institutional values of Honor, Courage and Commitment. The USNA 
graduate's attributes form the basis of a professional officer identity 
that each junior officer carries to the Fleet.
    The Leadership Education and Development Division provides 
midshipmen with an integrated and comprehensive educational program in 
leadership, ethics, character, and law. The curriculum consists of 
formal instruction by military and civilian professionals and is 
complemented by the practical knowledge and real-time fleet experiences 
of Navy, Marine Corps, and Joint Service leaders.
    The Character Development and Training Division integrates the 
moral, ethical and character development of midshipmen across every 
aspect of the USNA experience and facilitates the development of the 
leadership and character attributes outside the normal academic 
environment. This integrated character and leadership development 
program is the most important feature that distinguishes the USNA from 
other educational institutions and officer commissioning sources.
    The USNA also has a unique asset in the Stockdale Center for 
Ethical Leadership. Chartered in 1988 by the Secretary of the Navy, and 
named for Vice Admiral James B. Stockdale, a Medal of Honor recipient 
noted for his inimitable leadership, uncommon valor, and unwavering 
integrity, the Center's mission is to empower leaders to make 
courageous ethical decisions. The Stockdale Center enhances the efforts 
of all those at the USNA who have a part in the leadership and moral 
development mission.
    Beginning with the example of the President, Naval Postgraduate 
School (NPS), and extending to every corner of the campus, professional 
ethics are understood to be the organizational standard. The study of 
ethical consideration seeps into every curriculum across campus. The 
institutional expectation and regard for ethics in duty is constantly 
reinforced by a robust cadre of retired flag officers and Navy captains 
who serve as both faculty and staff, mentoring naval officers 
personally and professionally. This culture is further reinforced 
through the Secretary of the Navy's Guest Lecture series, an ongoing 
program which brings flag and general officers to speak to the NPS 
student body.
    Instruction of ethics is completely embedded throughout Navy PME. 
In addition to Navy's Education Institutions, other ethics-strong 
curricula are provided through Navy Chaplain Corps Courses, Supply 
Corps Officer Courses, Division Officer Leadership Course, Department 
Head Leadership Course, Command Leadership School (XO/CO/Major 
Command), Officer Candidate School (OCS), and Naval Reserve Officer 
Training Corps (NROTC).
    Dr. Snyder. The ten-week Joint Combined Warfighting School (JCWS) 
at the Joint Forces Staff College was originally designed as an 
operational planning course for Service intermediate level school 
graduates (i.e., majors and lieutenant commanders) on their way to a 
joint assignment. The JCWS has seen a significant number of more senior 
officers (e.g., colonels and Navy captains) and officers who have 
already completed a joint assignment in attendance. What changes need 
to be made to your officer management policies and practices to avoid 
what appears to be a misuse of the course, making its completion a 
perfunctory exercise only needed in order to be competitive for 
promotion to general or flag officer?
    Mr. Lutterloh. Joint Combined Warfighting School (JCWS) no longer 
provides an Operational Planner certification and requires prior 
completion of JPME-I by all prospective students, which cannot 
generally be attained prior to the rank of lieutenant commander. 
Therefore, the first opportunity to attend JCWS for the majority of 
naval officers is at the rank of commander. Twenty-three percent of 685 
Navy JCWS graduates since 2007 have been captains. The remainder have 
been commanders or lieutenant commanders. It is Navy's goal to assign 
our officers to Joint Education institutions prior to their joint 
tours; however, because of community requirements and career timing 
issues, Navy has, by necessity, sent select officers to JPME-II 
following their initial joint tour. Rather than being a ``perfunctory 
exercise,'' completion of JPME-II in these instances is important in 
preparing for future joint assignments and potential flag rank. Because 
assignment of post-joint tour officers to JPME-II is seen as the 
exception, vice the rule, there is no evidence at this time that 
changes must be made to Navy's officer management policies and 
practices.
    Dr. Snyder. We've heard concerns expressed by military students 
that the quality of the participating military department civilians is 
well below that of the military personnel. How does your military 
department select its civilian students for intermediate and senior 
level PME schools? Is there a process analogous to a selection board?
    Mr. Lutterloh. Civilian leadership and workforce development falls 
under the purview of the Deputy Assistant Secretary of the Navy 
(Civilian Human Resource) and the Office of Civilian Human Resources 
(OCHR) for the Department of the Navy (DON). Most of the civilians who 
participate in intermediate and senior level PME do so as a result of 
their participation in a structured developmental program such as the 
Defense Senior Leader Development Program (DSLDP). As such, there is a 
screening process in place designed to ensure each individual has the 
requisite education, competence and experience levels required by the 
specific program, including all elements of the program such as PME, 
prior to being accepted into the program. We are aware of concerns that 
some civilian participants are lacking in experience equivalent to 
their military counterparts. Therefore, a more rigorous screening 
process has been implemented recently at both the Department of Defense 
(DOD) and component levels. This process calls for a Senior Executive 
level panel to review all applications and recommend those applicants 
qualified for the specific developmental program, ensuring that only 
qualified applicants are nominated to the DOD program office. The DOD 
program office hosts a six-hour assessment center in which the 
candidates' demonstrated leadership competencies are evaluated and 
documented in an assessment report. Once all candidates have been 
assessed, those who have demonstrated the requisite leadership skills 
and have documented the requisite education and experience are 
recommended for acceptance into the program by a Senior Executive panel 
comprised of representatives from all DOD Components, which includes a 
mix of flag/general officers and SES members. Recently implemented, 
this process has significantly improved the quality of civilian 
candidates.
    Dr. Snyder. Is PME completion career-enhancing for military 
department civilians? If so, how? We've heard that after PME 
completion, they often return to the same job with the same level of 
responsibility with virtually no recognition of what these civilian 
students gained from the PME experience. The Air Force apparently has 
at least the beginnings of a different program. Can you describe that 
and whether you think it could serve as a benchmark?
    Mr. Lutterloh. Professional Military Education (PME) completion is 
career-enhancing for Department of the Navy (DoN) civilians. It is true 
that, immediately upon completion of PME, civilian employees most often 
return to the same position they occupied prior to attending PME. 
However, they are frequently assigned to work on corporate strategic 
initiatives due, in large part, to the perspective they bring as a 
result of their PME experience. Both the PME experience, together with 
the developmental requirements imposed by the specific developmental 
program, most often affords the participant with opportunities to 
demonstrate their capabilities to Senior Executives and Military 
leaders throughout the DoN and the Department of Defense (DOD). This 
exposure frequently results in a career-enhancing job change for the 
individual. Although DoN follows a merit systems principles-based 
approach to position management, the transition to Community Management 
presents greater opportunity for the Department to use succession 
planning and overall talent management to ensure civilians with PME are 
recognized and considered for positions with greater responsibility.
    We understand that the Air Force takes a more centrally managed 
approach to its leadership development and related positions. If 
standardizing the selection process for civilian employee participation 
in PME career management following completion is a desired goal, Navy 
recommends careful evaluation and adoption of best practices from 
across DOD Components.
    Dr. Snyder. We've seen that there are very few in-residence PME 
billets available to Reserve Component (RC) officers, notwithstanding 
their significant contribution to current operations in Afghanistan and 
Iraq. When PME billets do become available, it can be complicated for 
RC officers to fill them. The slots are often offered at the last 
minute, i.e., once it becomes clear that active duty personnel will not 
be able to fill those seats. In addition, attendance will require 
Reserve and Guard officers to take ten months time away from their 
civilian careers and often will require relocation. What is your 
Service doing to ensure that its RC officers undergo the leader 
development necessary to fully integrate with their active duty 
counterparts in joint operations?
    Mr. Lutterloh. At the Naval War College (NWC), there are a small 
number of student billets dedicated for members of the Reserve and 
Guard components, which are highly competitive and consistently filled. 
Those fortunate enough to attend in-residence, either the intermediate 
or senior course, have the maritime and joint warfighting knowledge and 
appropriate leadership skills to fully integrate in contemporary joint 
operations.
    However, there is a significantly greater opportunity for Navy and 
other Service Reserve and Guard members to enroll in one of the four 
non-resident, intermediate-level programs offered by the NWC. Each of 
those courses is focused on producing officers skilled in applying 
operational art and operational perspectives, adept as naval and joint 
planners, and prepared for operational-level leadership challenges. 
Like their resident counterparts, these graduates are prepared to 
integrate fully with their active duty counterparts in contemporary 
joint operations.
    During the past five years, 5594 Reserve officers have been 
enrolled in these courses, representing 27 percent of the total 
enrollment. No qualified Reserve officer has been denied a seat. Navy 
leadership recognizes the critical importance of these educational 
opportunities and annually provides the President, NWC with additional 
resourcing to support this educational opportunity.
    Navy uses every opportunity available to continuously communicate 
the value of Joint Professional Military Education (JPME) to the Fleet. 
We educate officers on available opportunities for the various levels 
of PME and avenues to facilitate their participation throughout their 
careers. Commander, Navy Reserve Force provides Reserve Component (RC) 
officers joint leadership development opportunities to include: JPME 
Phases I/II, War Colleges (Navy, Army, Marine Corps, Air Force), Joint 
Advanced Warfighting Schools, and Joint Combined Warfighting School. 
There are also tailored joint education classes specifically developed 
for the RC such as Navy Reserve Advanced Management (NRAM), AJPME, and 
Joint Forces Reserve Officer Course (JFROC). Of note, NRAM and JFROC 
are high level, strategic courses specifically developed to assist RC 
officers in preparing for the rigors and challenges of current 
operations in Afghanistan and Iraq. In fiscal year 2009, Navy funded 
$2.4 million in in-residence school quotas, which are boarded at the 
flag officer/senior O-6 level, to ensure the best candidates are 
selected.
    Dr. Snyder. Do you feel the officer management system for your 
Service complements the PME/JPME system? We've repeatedly heard the 
critique that they are not closely aligned. Are there policy changes 
that need to be made so officers have time to attend the requisite 
schools and complete key developmental assignments for promotion 
purposes, but more importantly for leader development purposes?
    General Spiese. Professional Military Education is an integral part 
of an Officer's career progression and factors significantly into 
assignment process for Marine Corps Officers, which we believe is 
adequate. The Headquarters Marine Corps (HQMC) Officer Assignments 
Branch is charged with filling valid staffing requirements (both 
internal and external) and building a balanced officer corps. Officers 
are expected to serve in their Primary Occupational Specialty (PMOS), 
at each grade, in the operating forces. When not serving in the 
operating forces, officers are typically assigned to career broadening 
assignments which include resident PME, supporting establishment, and 
upper-level staff (both Joint and HQMC Staff). All resident PME venues 
are filled to capacity during each Fiscal Year (FY) Staffing Cycle. 
Those officers who do not attend resident PME are expected to complete 
it via the Distanced Education Program (Independent Guided Study or 
Seminar). Failure to complete appropriate PME for grade will adversely 
affect an officer's competitiveness on both statutory (promotion) and 
non-statutory (command/program selection) boards.
    Dr. Snyder. The Chairman uses a Military Education Coordination 
Council (MECC) in a formal process to ``build'' the Officer 
Professional Military Education Policy (the OPMEP). Recognizing the 
Service Chiefs' prerogatives in terms of ``managing the quality and 
content'' of Service-specific curriculum at their PME institutions, 
does your Service have a similar formal process for determining and 
integrating Service-specific curriculum throughout your school system, 
and how does that process tie into your overall leader development 
strategy?
    General Spiese. Marine Corps Order 1553.4B identifies the President 
of Marine Corps University as the proponent for PME within the Marine 
Corps. This unity of command allows for centralized planning and 
decentralized execution, thus providing a coordinated officer leader 
development continuum from captain through general officer.
    The President of Marine Corps University integrates and manages PME 
curricula via a Curriculum Review Board (CRB) formal process. He chairs 
the board that is comprised of all school directors, vice presidents, 
key staff members, and others as required. Each school is required to 
conduct a thorough brief of their curriculum every two years or earlier 
if a learning outcome is changed. While the briefing covers course and 
class description, hours devoted to each session, budgetary 
considerations, and other relevant data, the most important aspect of 
the board is the vetting of learning outcomes and methods of 
assessment. Schools discuss, in detail, what the students should learn 
as a result of each course and how the institution will assess whether 
the student learned as required. Representation of each level of PME by 
the appropriate school director during these board meetings allows the 
integration of Service-specific and joint curriculum among all schools. 
This is an excellent forum to ensure that a change at one level does 
not adversely impact PME at another level. Similarly, redundancy is 
reduced and connectivity is enhanced.
    Leadership is a key component of the curriculum of each school so 
the CRB serves as an excellent means to manage and link leader 
development content at each level of PME. In fact, schools have 
dedicated courses and classes on leadership that are thoroughly 
discussed and vetted during the CRBs. Additionally, Marine Corps 
University is in the final stages of producing a revised education 
continuum that delineates learning outcomes for each level of PME. This 
will serve as an azimuth for the CRB sessions and help ensure that 
leader development and other key components are properly integrated 
throughout the continuum.
    Dr. Snyder. We have heard that officers are arriving at the 
combatant commands and joint task forces for joint duty assignments, 
even for operational planning billets, without having completed JPME 
II. Some combatant commanders have issued policies barring their staff 
officers' attendance at the 10-week JPME II course. They believe the 
Services should be sending officers who are fully qualified and ready 
to serve in their assignments, rather than having the combatant 
commander forced to give up these officers for 10 weeks. Can you 
comment on what is causing this to happen? Isn't this detrimental to 
the force and to the officers involved? Can you comment on the utility 
of officers attending the JPME II ten-week course after completing or 
late into joint assignments? It's perceived as a perfunctory 
requirement (in the nature of ``square-filling'') necessary for 
promotion, instead of as a useful part of professional development.
    General Spiese. Every effort is being made to have officer's 
complete JPME II prior to assuming a Joint Duty Assignment List (JDAL) 
billet. The Marine Corps sources approximately 200 JDAL billets per FY. 
Approximately 80 Marine Corps Officers graduate from one of the Service 
Level or National Defense University (NDU) Top Level Schools each year 
(JPME II accredited). Of these graduates who did not have a previous 
joint assignment, 98% are sent to follow-on JDAL assignments. The 
remaining JDAL assignments are sourced with officers who have satisfied 
FMF PMOS requirements and are postured for success in the joint 
environment. The Marine Corps receives 75 school seats per FY at the 10 
week JPME II course. Additionally, officers who have completed the 
Experience based Joint Duty Assignment (E-JDA) tour pre-requisites are 
also competing for these school seats. The limitation in throughput has 
resulted in officers having to attend JPME II during or even at the 
conclusion of their JDAL assignment. While this is less than optimal, 
it is a reality based on school seat quotas. Alternative means to 
obtain JPME II credit, to include web based courseware or inclusion in 
the joint Distance Education Program have been discussed.
    Dr. Snyder. The Skelton Panel considered faculty as the determinant 
factor in quality education. What policies do your Services have to 
ensure that the highest quality military faculty is assigned to the 
Service and joint PME institutions including to your other Service 
counterparts' institutions? What policies do you have in place 
concerning faculty follow-on assignments?
    General Spiese. Marine Corps University establishes high standards 
for both military and civilian faculty. The desired criteria for 
military faculty at the Marine Corps War College includes the rank of 
colonel, a master's degree from an accredited institution, a TLS 
graduate, recent operational experience, joint experience, and previous 
teaching experience. At Command and Staff College the desired criteria 
are the rank of O5/O6, TLS graduate, a master's degree from an 
accredited institution, and recent operational experience. The good 
news is that we have been successful in recruiting faculty who possess 
most of the desired prerequisites. The bad news is that these same 
criteria are used by promotion and command screening boards so that our 
faculty rarely stays over two years due to promotions, selection for 
command, or selection for critical billets. Some military faculty is 
aboard for only one year. However, we have made a conscious decision to 
accept a high turnover rate in order to get the highest quality 
faculty. On the plus side, the constant infusion of faculty just 
returning from the operating forces ensures the curricula are relevant.
    Currently, a Memorandum of Understanding (MOU) describing the 
qualities desired for Sister Service faculty exists for JPME II 
institutions. A similar MOU is being developed for JPME I institutions. 
These MOU ensure faculty possesses the baseline prerequisites, thus 
helping to manage the assignment of non-host faculty to Sister Service 
institutions.
    Faculty departing MCU are subject to the standard USMC policies 
governing assignments. Generally, the guiding principles are the needs 
of the Marine Corps, the professional needs of the officer, and the 
personal desires of the officer, in priority. The need of the USMC is 
the determining factor.
    Dr. Snyder. ``Professional ethics'' does not appear as a discrete 
learning area in the officer military education policy (the OPMEP). Can 
you comment on how professional ethics is made part of PME?
    General Spiese. The Marine Corps War College conducts a Leadership 
and Ethics Course that provides the student with tools he or she can 
use both in the other courses in the curriculum and throughout a 
career. Designed to expand on the solid leadership experience and 
education/training of War College-level students, the Leadership/Ethics 
course blends the study of theory with discussions with senior military 
and civilian practitioners of strategic leadership. The course begins 
with a study of complexity, critical/creative thinking and decision-
making that includes seminars on the Profession of Arms, the ethical 
use of military force and the ethical challenges of senior leaders in 
the complex strategic environment. The discussion of ethics at the 
strategic level also occurs in other areas of the Marine Corps War 
College curriculum. The National Security and Joint Warfare course has 
at least 10 classes that deal directly with ethical questions. These 
include classes such as: Civil-military relations; the military and the 
media; Non-governmental actors on the battlefield; Current issues in 
National Security; Coercion; pandemics; Weapons of Mass Destruction; 
Defense in Support of Civil Authorities; Counterinsurgency; and others 
that do so more obliquely. The War Strategy and Policy course also has 
several classes that deal with ethics at the policy and strategy level.
    At the School of Advanced Warfighting, professional ethics is 
broken out in two overt sessions 1) The My Lai case study, and 2) 
Decision making in a problematic environment. These cases build upon an 
ethical foundation built at the intermediate school level and below. 
The focus is on the strategic implications of difficult ethical 
decisions and the available actions to the commander. Where applicable, 
ethics are brought into each planning problem as either friction or 
establishing the framework of the operational environment.
    Command and Staff College adopts the philosophy that ``human 
factors'' dominate war and conflict and, consequently, the subjects of 
leadership, morality, ethics, and the art of command are central to an 
understanding of the profession of arms. The examination of moral and 
ethical questions takes place in a variety of ways. In the Leadership 
Course students will examine and assess the Law of War and Morality of 
War, particularly studying the My Lai massacre, the Biscari incident in 
Sicily in WWII, Haditha and Abu Graib. Ethical issues contribute to 
discussions of command climate, relationships with subordinates, and 
command philosophy. Students draft a command philosophy early in the 
second semester and revise it over the remainder of the academic year. 
This year they will brief it to their peers and get peer feedback as 
part of the revision process. Several exercises explore ethical issues. 
During the Warfighting from the Sea course, the Response to 
Catastrophic and Disruptive Events exercise, the Counterinsurgency 
Exercise, and Exercise NINE INNINGS all deal with the complexities of 
the operating environment, which include ethical questions. The 
College's Strategic Communications block, including the media sub-
course, touches upon ethical issues. The Culture and Interagency 
Operations course is replete with ethical issues, such as the 
effectiveness of cross-cultural communications, post-conflict stability 
and reconstruction, decision-making in complex and ambiguous 
interagency environments, just to name a few. The Operational Art 
course explores decision-making at campaign levels, which includes 
ethical issues regarding the use of force in traditional and irregular 
settings.
    Dr. Snyder. The ten-week Joint Combined Warfighting School (JCWS) 
at the Joint Forces Staff College was originally designed as an 
operational planning course for Service intermediate level school 
graduates (i.e., majors and lieutenant commanders) on their way to a 
joint assignment. The JCWS has seen a significant number of more senior 
officers (e.g., colonels and Navy captains) and officers who have 
already completed a joint assignment in attendance. What changes need 
to be made to your officer management policies and practices to avoid 
what appears to be a misuse of the course, making its completion a 
perfunctory exercise only needed in order to be competitive for 
promotion to general or flag officer?
    General Spiese. Our officer management policies are sound. There is 
currently a backlog of officers who require JPME II in order to obtain 
the 9702 Joint Qualified Officer (JQO) MOS. This back log is a result 
of the Service Level Top Level Schools not being JPME II accredited 
until 2007. It is also compounded by the recent implementation of the 
E-JDA path toward obtaining the JQO designation. We see this anomaly as 
self correcting over time. Instituting alternative JPME II venues will 
only serve to expedite this process.
    Dr. Snyder. We've heard concerns expressed by military students 
that the quality of the participating military department civilians is 
well below that of the military personnel. How does your military 
department select its civilian students for intermediate and senior 
level PME schools? Is there a process analogous to a selection board?
    General Spiese. Civilian Marines apply to attend ILE and SSE as 
part of their professional development opportunities. Usually, a review 
panel selects the best qualified to participate in these programs since 
seats are limited.
    Marine Corps University recruits civilian students from a wide 
variety of interagency partners. Generally, the quality of those 
interagency students has been very good. The Marine Corps War College 
and the Command and Staff College maintain a dialog with the agency HR 
offices and discuss desired attributes before their respective 
selection panel convenes. The key factor for civilian students is 
comparable operational experience to that of the military students.
    Additionally, Manpower and Reserve Affairs Department (MP Division) 
has a process in place analogous to a selection board for all other PME 
schools sponsored throughout the Department of Defense. A MARADMIN 
message is sent out throughout the Marine Corps to solicit potential 
candidates for the PME schools that contain information in ref to the 
school and documentation required to apply. Once the nomination 
packages are received by the Program Manager (PM), they are reviewed 
for completion. A panel consisting of approximately three Senior 
Executive Service members reviews the applications and identifies the 
best qualified candidates in rank order.
    Dr. Snyder. Is PME completion career-enhancing for military 
department civilians? If so, how? We've heard that after PME 
completion, they often return to the same job with the same level of 
responsibility with virtually no recognition of what these civilian 
students gained from the PME experience. The Air Force apparently has 
at least the beginnings of a different program. Can you describe that 
and whether you think it could serve as a benchmark?
    General Spiese. Attending a PME program is definitely career-
enhancing for civilian Marines. PME is an investment in the future. 
Sometimes there is an immediate return on investment, but sometimes 
it's a long-term investment. The civilian personnel system is not 
structured to promote all civilians attending PME programs. The intent 
however, according to OPM guidance is for the Marine Corps as an 
institution to assume responsibility for the development of future 
leaders as coaches, mentors, teachers, and most of all, exemplars 
within and without leadership development programs. Our efforts are to 
ensure continuity of leadership by identifying and addressing potential 
gaps in effective leadership. This is accomplished by implementing and 
maintaining programs that capture organizational knowledge and promote 
learning. Upward mobility on the civilian side must be in accordance 
with the merit systems principles which only allow an organization to 
hire the best qualified candidates for a position without pre-
selection.
    In the end, it is logical to assume that some will return to the 
same jobs, with essentially the same responsibilities. However, 
civilians completing PME programs are definitely more qualified than 
their peers not participating in the programs and they can expect to be 
more competitive when it comes to selection to key positions and 
advancement within the federal government.
    The Lejeune Leadership Institute, Marine Corps University is 
currently reviewing what the other services are designing and 
implementing for their civilian workforce. This review also includes 
what is provided by other government agencies.
    Review of the Air Forces' civilian leadership development process 
provides excellent insights and a reasonable construct for the Marine 
Corps to consider. Their civilian leadership development model is based 
on a four course approach that addresses entry level civilian workers 
(acculturation) through sustained education (continuing professional 
development). This is an emerging initiative of theirs with significant 
potential to hire and sustain a professional civilian workforce for the 
Air Force. Additionally, the Army's Civilian University's programs have 
been reviewed for potential use by the Marine Corps.
    The Marine Corps has recognized the importance of developing a 
professional education program for its civilian workforce as well. The 
Lejeune Leadership Institute is currently in the process of defining, 
designing, developing, and implementing a similar development program 
that is being implemented by both the Army and Air Force. The Marines 
model envisions a curriculum consisting of five courses that will be 
delivered through blended seminars, using Blackboard and regional 
campuses with global reach to our civilian workforce. The model and 
delivery of the civilian leadership curriculum will parallel a similar 
construct used for our officer and enlisted nonresident professional 
military education.
    Dr. Snyder. We've seen that there are very few in-residence PME 
billets available to Reserve Component (RC) officers, notwithstanding 
their significant contribution to current operations in Afghanistan and 
Iraq. When PME billets do become available, it can be complicated for 
RC officers to fill them. The slots are often offered at the last 
minute, i.e., once it becomes clear that active duty personnel will not 
be able to fill those seats. In addition, attendance will require 
Reserve and Guard officers to take ten months time away from their 
civilian careers and often will require relocation. What is your 
Service doing to ensure that its RC officers undergo the leader 
development necessary to fully integrate with their active duty 
counterparts in joint operations?
    General Spiese. Marine Corps Reserve Affairs releases a MARADMIN 
message every summer announcing RC Officer PME opportunities available 
for the following academic year and solicits applications to attend 
full length schools (FLS), as well as staff training courses and 
participation in PME distance education programs. The release of the 
MARADMIN at this particular time provides RC officers with notice of 
opportunities almost a full year in advance of the individual course 
convening dates. A RC Officer PME Selection Board typically occurs 
during the month of November and the results are released via MARADMIN 
that same month.
    The RC of the Marine Corps is allocated a fixed number of quotas 
for FLS (full length course)-Top Level Schools (TLS) and a fixed 
percentage (1%) of quotas for FLS-Intermediate Level Schools (ILS). The 
quota breakdown for FLS-TLS and FLS-ILS, as well as FLS-Career Level 
Schools (CLS) is provided below:
    FLS-TLS (JPME II Accredited)
    (2) Air War College
    (2) College of Naval Warfare
    (2) Industrial College of the Armed Forces
    (1) Marine Corps War College
    (2) National War College
    (3) U.S. Army War College
    FLS-ILS (JPME I Accredited)
    (2) Air Command and Staff College
    (1) Canadian Joint Command and Staff Program
    (8) Marine Corps Command and Staff College
    (2) Naval Command and Staff College
    (4) United States Army Command and General Staff College
    FLS-CLS
    (3) Marine Corps Expeditionary Warfare School
    In addition to releasing the results of the RC Officer PME 
Selection Board, an alternate list is simultaneously generated. The 
Marine Corps recognizes the difficulties associated in getting RC 
officers to attend FLS on short notice, so an alternate list is 
generated so that RC officers can prepare for potential FLS attendance 
in case another RC officer, or potentially even an Active Component 
officer, has to drop from a course. Alternates are provided with the 
pre-course work, if applicable, and encouraged to complete all pre-
course work in the event a vacancy becomes available.
    The Marine Corps also recognizes the difficulties associated with 
RC officers having to relocate for FLS attendance and take ten months 
time away from their civilian careers. For this reason, additional 
opportunities in the form of staff training courses and PME distance 
education programs exist for RC officers to receive the appropriate 
level of PME. The staff training courses are two weeks in duration and 
the PME distance education programs, depending upon the course, can be 
completed at a time and place of the officer's choosing or physically 
attended one weekend per month in lieu of the officer drilling at a 
Selected Marine Corps Reserve unit.
    Dr. Snyder. Do you feel the officer management system for your 
Service complements the PME/JPME system? We've repeatedly heard the 
critique that they are not closely aligned. Are there policy changes 
that need to be made so officers have time to attend the requisite 
schools and complete key developmental assignments for promotion 
purposes, but more importantly for leader development purposes?
    Mr. Sitterly. The Air Force continues to make developing our Airmen 
a priority and recognizes the close tie between force management and 
force development. In fact, three times per year, the Force Management 
and Development Council (FMDC) meets to provide advice and decisions in 
these areas. The FMDC is a Vice Chief of Staff of the Air Force-chaired 
body whose membership includes the Major Command Vice Commanders, the 
Functional Authorities, the Chief Master Sergeant of the Air Force, the 
Chief of the Air National Guard, and the Chair of the Air Force 
Executive Resources Board. Under the FMDC, there are 5 sub-panels. 
Three are population focused: Officer, Enlisted, and Civilian Force 
Development Panels; two are synchronization focused: Air Force Learning 
Committee and the Expeditionary Skills Senior Review Group.
    The Officer Force Development Panel (OFDP) is composed of seven 
three-star general officers, a senior statesman, and several advisors. 
This body recently conducted a systematic and comprehensive review of 
Air Force Developmental Education policies, including those related to 
Professional Military Education. Additionally, the OFDP has been 
focused on how to deliberately develop officers for deep and broad 
leadership roles, especially those in the joint environment. At this 
point, we do not anticipate making policy changes, but the panel may 
recommend programmatic changes that would result in a different 
sequence of development.
    Developing Airmen has long been a focus for the Air Force; that 
remains true today.
    Dr. Snyder. The Chairman uses a Military Education Coordination 
Council (MECC) in a formal process to ``build'' the Officer 
Professional Military Education Policy (the OPMEP). Recognizing the 
Service Chiefs' prerogatives in terms of ``managing the quality and 
content'' of Service-specific curriculum at their PME institutions, 
does your Service have a similar formal process for determining and 
integrating Service-specific curriculum throughout your school system, 
and how does that process tie into your overall leader development 
strategy?
    Mr. Sitterly. Yes. The Air Force developed the Air Force Learning 
Committee (AFLC) to serve as the gate-keeping body for AF functional 
injects to curriculum. The AFLC is comprised of Air Staff, functional, 
MAJCOM and Air University (AU) representatives. The Committee 
determines whether requested topics should be integrated in PME 
curriculum/programs in accordance with senior leader priorities and 
vision. Prior to the AFLC, educators adjudicated functional requests on 
a case-by-case basis, which lacked formal AF guidance or senior leader 
oversight/prioritization. In addition to the AFLC, AU is building an AF 
OPMEP for AF officer education that will be presented to the AFLC in 
the spring of 2010. This AF OPMEP will help to lay a foundation of 
requirements for AF officer education.
    Dr. Snyder. We have heard that officers are arriving at the 
combatant commands and joint task forces for joint duty assignments, 
even for operational planning billets, without having completed JPME 
II. Some combatant commanders have issued policies barring their staff 
officers' attendance at the 10-week JPME II course. They believe the 
Services should be sending officers who are fully qualified and ready 
to serve in their assignments, rather than having the combatant 
commander forced to give up these officers for 10 weeks. Can you 
comment on what is causing this to happen? Isn't this detrimental to 
the force and to the officers involved? Can you comment on the utility 
of officers attending the JPME II ten-week course after completing or 
late into joint assignments? It's perceived as a perfunctory 
requirement (in the nature of ``square-filling'') necessary for 
promotion, instead of as a useful part of professional development.
    Mr. Sitterly. Fundamentally, this is a timing/scheduling/seat 
availability issue. Overall, we have had no problems filling USAF class 
seats to 100%. However, with only four JMPE II courses annually, and 
those with limited seating, it is inevitable that some officers will 
not be able to attend prior to assuming their joint duties (the vast 
majority of our officers move during the summer months). Our priority 
is to send officers ``enroute,'' but when the choice is between sending 
the officer to the joint position or allowing them to sit and wait for 
a class, we feel it is in everyone's best interests to have the officer 
report to the joint organization and begin the new job, albeit without 
JPME II. For example, if we waited to send officers to this September's 
course before reporting to the joint job, that joint position most 
likely would have been vacant for over three months (mission impact) 
and the family would be moving during a school year (retention impact), 
which is a larger disservice to all concerned.
    Fortunately, we have had good success in working with joint 
commands to send officers after their arrival; albeit on average, 
slightly more than halfway through the joint assignment.
    We are aware of only one combatant commander policy barring their 
staff officers from attending the JPME II ten-week course--for the next 
course we have received 53 names from nine combatant commands, which 
tells us this practice is not widespread. That said, this policy is 
somewhat troubling and we have addressed our concerns with the 
appropriate J1 staff.
    The Air Force views service in a joint assignment as a valuable 
part of an officer's professional development and attendance at 
requisite JPME II is mandatory to be designated a joint qualified 
officer (JQO). To the Air Force, JPME II is not seen as a ``square 
filler.''
    Dr. Snyder. The Skelton Panel considered faculty as the determinant 
factor in quality education. What policies do your Services have to 
ensure that the highest quality military faculty is assigned to the 
Service and joint PME institutions including to your other Service 
counterparts' institutions? What policies do you have in place 
concerning faculty follow-on assignments?
    Mr. Sitterly. AF military faculty members are selected by the AF 
assignment system. Development Teams (DTs) vector officers based on 
qualification, career progression and needs of the AF and DOD. 
Assignment and career field teams manage placement. Air University 
works closely with the Air Force Personnel Center (AFPC) or the 
Colonels' Group to ensure highly qualified faculty members are assigned 
to meet the mission requirements of its schools. Each school identifies 
requirements for its military faculty to AFPC and works closely with 
them to ensure officers being considered for faculty duty meet minimum 
requirements. Departing faculty members are vectored for the 
appropriate developmental follow-on assignments by their respective 
DTs.
    In addition to assignment management by the DTs, the AF has 
developed additional opportunities for follow-on assignments for 
faculty. In 2007, the AF implemented a program to competitively select 
officers through the developmental education designation process to 
instruct at Squadron Officer School for 2 years and then attend Air 
Command and Staff College as a student. Additionally, officers may be 
selected to instruct at Air Command and Staff College for 2 years and 
then attend Air War College as a student.
    Dr. Snyder. ``Professional ethics'' does not appear as a discrete 
learning area in the officer military education policy (the OPMEP). Can 
you comment on how professional ethics is made part of PME?
    Mr. Sitterly. Ethics is a foundational requirement in all officer 
professional development curricula taught throughout the Carl A. Spaatz 
Center for Officer Education. The Air Force Institutional Competency 
List (included in Air Force Policy Directive 36-26, Total Force 
Development, Air Force Doctrine Directive 1-1, Leadership and Force 
Development, and cross-referenced in Air University Continuum of 
Officer and Enlisted Professional Military Education Strategic Guidance 
(CESG)) directs the teaching of Ethical Leadership under Standard 3A in 
order to prepare students for future leadership challenges.
    The AF embraces ethics as a cornerstone of its professional 
development programs, exemplified by the foundational doctrine 
statement contained in Air Force Doctrine Document 1-1: ``The 
professional Air Force ethic consists of three fundamental and enduring 
values of integrity, service and excellence.'' These core values 
permeate the curricula at each officer school as well as the 
expectations for student performance both within the academic programs 
and beyond.
    Ultimately, ethical lessons are embedded in curricula taught at all 
levels of officer in-residence PME and distance learning programs. For 
example, at the Air and Space Basic Course, students are introduced to 
ethical standards, values, and integrity in the ``Officership'' lesson; 
at Squadron Officer School, students face true-to-life ethical dilemmas 
in the ``What Now, Commander?'' block; at Air Command and Staff 
College, ``Ethics in Time of Crisis and War,'' ``Ethical Leadership,'' 
and ``Morality and War'' are blocks in the Leadership and Command 
courses; and finally, Air War College engrains ethical leadership 
throughout its curriculum, even including differing cultural ethics 
amongst coalition partners. Furthermore, AWC offers nine elective 
programs in which students may explore ethical challenges faced by 
senior leaders.
    Dr. Snyder. The ten-week Joint Combined Warfighting School (JCWS) 
at the Joint Forces Staff College was originally designed as an 
operational planning course for Service intermediate level school 
graduates (i.e., majors and lieutenant commanders) on their way to a 
joint assignment. The JCWS has seen a significant number of more senior 
officers (e.g., colonels and Navy captains) and officers who have 
already completed a joint assignment in attendance. What changes need 
to be made to your officer management policies and practices to avoid 
what appears to be a misuse of the course, making its completion a 
perfunctory exercise only needed in order to be competitive for 
promotion to general or flag officer?
    Mr. Sitterly. The Air Force values the skills gained at JCWS and 
ensures those attending need those skills as part of their assignment. 
There are not a significant number of senior Air Force officers 
(colonels) attending JCWS. In fact, of the last four classes, 47% of 
the Air Force officers were majors. Only 14% were colonels. The Air 
Force does not believe that attendance at JCWS is a ``perfunctory 
exercise'' needed solely to become competitive for promotion to 
general. As stated in question 38, joint service is a valuable part of 
an officer's professional development; joint education is an essential 
part of the joint experience.
    We are satisfied with the current guidance in DOD Instruction 
1300.19 that allows for both intermediate and senior level students to 
attend JPME II, and believe we are sending an appropriate mix of junior 
and senior field grade officers to JCWS.
    Dr. Snyder. We've heard concerns expressed by military students 
that the quality of the participating military department civilians is 
well below that of the military personnel. How does your military 
department select its civilian students for intermediate and senior 
level PME schools? Is there a process analogous to a selection board?
    Mr. Sitterly. Each year there is an Intermediate/Senior 
Developmental Education (IDE/SDE) Designation Board (DEDB) nomination 
procedural message and Civilian Developmental Education (CDE) 
nomination call that goes out to the field. Civilians self-nominate for 
qualified IDE/SDE programs and route their applications through their 
Senior Raters for approval. All eligible employees are encouraged to 
apply; however, commanders and managers only encourage and recommend 
quality civilians. Civilians are nominated by their chain of command to 
their functional community. Each respective functional Developmental 
Team (DT) ranks those employees to go forward to the CDE Board. The CDE 
Board is comprised of an SES-level panel which identifies high 
potential civilian employees to participate in AF IDE/SDE programs. The 
goal is to identify high potential employees for the developmental 
education (DE) programs that best suit the employee's career goals and 
the needs of the AF. Civilians identified by the CDE are in-turn 
forwarded to the DEDB for final selection. Respective career fields DTs 
monitor and work follow-on assignments for employees upon graduation. 
Follow-on assignments are selected based on the best utilization of the 
employee's DE experience.
    Eligibility criteria are included in the Civilian Developmental 
Handbook. To be eligible to attend AWC, civilians must be a GS 14-15 or 
NSPS Pay Band 3. Civilians must be a GS 12-13 or NSPS Pay Band 2 to be 
eligible for ACSC attendance.
    Dr. Snyder. Is PME completion career-enhancing for military 
department civilians? If so, how? We've heard that after PME 
completion, they often return to the same job with the same level of 
responsibility with virtually no recognition of what these civilian 
students gained from the PME experience. The Air Force apparently has 
at least the beginnings of a different program. Can you describe that 
and whether you think it could serve as a benchmark?
    Mr. Sitterly. Yes, however we are continuously working to improve 
and implement new initiatives to enhance the careers of our civilian 
workforce.
    The AF believes it is important to invest in the development of its 
civilian workforce, especially since the civilian workforce makes up 
about 60% of the officer and equivalent population (up from about 50% 
in the 1990s). We have a robust selection process and encourage 
employees to volunteer to attend in-residence programs. Generally, AF 
participants in developmental education have exhibited a history of 
mobility, and participants must sign mobility agreements as part of the 
application process.
    The AF recognizes that our ability to find high-quality candidates 
depends on supervisor and senior leader involvement. Senior leaders 
routinely encourage participation in programs. When members are 
assigned to developmental education, they are placed onto centrally-
funded positions, thereby freeing up the organization to hire a 
replacement. This also allows the AF to find a new assignment for the 
participant. The intention is to find a position which capitalizes on 
the education and experience gained during the program, and one that 
continues the member's development.
    The AF generally relies on the Development Teams, a group of senior 
leaders from each functional community, to identify appropriate follow-
on assignments. Recently, we initiated a review of our ability to find 
follow-on assignments that build on the learning in each developmental 
education program. This information will be reviewed by our Civilian 
Force Development Panel, a select group of senior AF career members of 
the Senior Executive Service, who advise on the creation, adjustment, 
and adequacy of our civilian force development strategy, policies, 
programs, and initiatives. If the results of this analysis show we are 
not executing our philosophy, we will work on a new strategy for 
identifying post-program assignments.
    Dr. Snyder. We've seen that there are very few in-residence PME 
billets available to Reserve Component (RC) officers, notwithstanding 
their significant contribution to current operations in Afghanistan and 
Iraq. When PME billets do become available, it can be complicated for 
RC officers to fill them. The slots are often offered at the last 
minute, i.e., once it becomes clear that active duty personnel will not 
be able to fill those seats. In addition, attendance will require 
Reserve and Guard officers to take ten months time away from their 
civilian careers and often will require relocation. What is your 
Service doing to ensure that its RC officers undergo the leader 
development necessary to fully integrate with their active duty 
counterparts in joint operations?
    Mr. Sitterly. The Air National Guard (ANG) and Air Force Reserves 
(AFR) ensure officers undergo the leader/force development necessary to 
fully integrate with their active duty counterparts in joint 
operations. The career field managers, Development Teams, and the 
respective components' Career Management Board are involved in efforts 
to inform and guide high potential officers to the joint arena.
    The ANG and AFR are each given designated developmental education 
quotas each academic year. For CY09/AY10 starts, ANG received 20 Senior 
Developmental Education (SDE) and 24 Intermediate Developmental 
Education (IDE) in-residence quotas that award JPME I & II credit. The 
ANG was able to fill all but 7 of the allotted slots for this year. The 
AFR filled 21 Senior Developmental Education (SDE) and 21 Intermediate 
Developmental Education in-residence quotas that award JPME I & II 
credit. Additionally, at the junior level, ANG/AFR each receives 
approximately 40+ Air and Space Basic Course and 100+ Squadron Officer 
School in-resident quotas per year.
    Specifically, ANG/AFR request in-residence officer developmental 
education quotas through an annual submission to the Developmental 
Education Designation Board (DEDB). Requests are based on historical 
attendance statistics, adjusting input as trends/requirements change. 
Quotas are approved and provided to the ANG/AFR in time to announce an 
application period, convene a competitive selection board, and notify 
personnel of selection for the upcoming academic year. Normally, any 
short-notice opportunities are the result of late-notice civilian or 
interagency quota cancellations that are offered to the ANG/AFR above 
the normal allocation. These quotas are never difficult to fill and 
ANG/AFR are always given an opportunity to fill them, as well as the 
active duty component. Historically, the AFR has normally been prepared 
to take advantage these additional quotas.
    While it is true that ANG and AFR personnel experience unique 
challenges as a result of selection to attend in-residence 
developmental education programs, such as extended absences from 
civilian employment and maintaining dual residences, there are 
alternative means of completing IDE/SDE programs. Both ANG and AFR 
personnel are eligible to complete their PME requirements via 
correspondence, seminar, or by participating in one of the 45 Air 
Reserve Component Seminar Programs for Air Command and Staff College 
and Air War College. These programs are a combination non-resident/
student-led seminar program (blended learning), augmented with 2-week 
attendance requirements at Maxwell AFB, AL, scheduled periodically 
throughout the course. All three options are available, regularly 
utilized, and recognized in the development of ANG and AFR officers; 
the resident and non-resident offerings present a robust portfolio of 
opportunities.
    AFRC also has a professional development program which offers the 
opportunity to attend leadership development opportunities to over 400 
officers each year prior to or after IDE or SDE completion.<greek-l>
    Joint Duty Assignment List (JDAL) Billets at JPME I Institutions
    Submitted in response to questions raised by the
    Oversight & Investigation Subcommittee
    House Armed Services Committee
    28 July, 2009
    1) Does each service support adding JPME I faculty to JDAL? Why?
    The Marine Corps University supports removing the exclusion in 
Title 10, Section 668 which prohibits non-host JPME I joint training 
and education faculty and instructors from the JDAL. Inclusion of these 
billets will recognize the significance of these positions and the role 
of faculty in the development of joint leaders. While each billet 
should be evaluated on its own merit, those billets that are 
responsible for the development, delivery, or assessment of joint 
professional military education should be included in the JDAL. 
Development of competent joint leaders is the cornerstone of 
strengthening joint matters throughout the Services. The faculty 
charged with that responsibility should be in the JDAL.
    2) How do these positions meet the Joint matters requirements in 
law in Title 10 section 668?
    There is no better way to master a subject than to teach that 
subject. This is particularly true when the student population is 
increasingly more experienced in service and joint matters. The average 
ILS student now has multiple deployments and has worked within a joint, 
interagency, and multinational environment. Non-host JPME faculty with 
curricula responsibilities are immersed in joint matters. They must be 
experts in their parent service, learn the service environment of their 
host institution, and be an expert on joint warfare and joint matters. 
This clearly meets the definition of joint duty assignment of Title 10, 
Section 668, in that the officer definitely gains ``significant 
experience in joint matters.''
    3) Should this be available to only non-host faculty, or should all 
faculty be afforded the opportunity if the position they are in meets 
the requirements of a validated position?
    Only non-host JPME I faculty should be considered. Immersion in the 
culture, operation, and policies of the host service is the ultimate in 
joint acculturation. While gaining expertise in joint matters, the non-
host faculty learns the ethos of a Sister Service. Host faculty do not 
experience the same joint acculturation.
    4) How will this affect the quality of Military faculty?
    By rescinding the listing of JPME I faculty as part of the JDAL, 
the FY07 NDAA made recruitment of high-quality military faculty much 
more difficult and created a significant obstacle in attracting the 
best faculty to educate our leaders. Today an officer must balance 
requirements for joint duty, command tours, staff tours, and various 
service related assignments. Officers are hard pressed to include all 
requirements and must take advantage of every opportunity to receive 
credit where it is appropriate. Assignment to a position on the JDAL is 
considered to be a ``standard'' path to earning joint qualifications. 
While officers still have the capability to self-nominate based on 
their experiences, this hardly seems appropriate if we are serious 
about quality joint education. In short, not giving JDAL credit to non-
host military faculty at the JPME I schools will certainly not help the 
recruitment, nor retention, of the ``top shelf'' military faculty.
    5) If a JPME I level school had billets on the JDAL prior to the 
2007 legislation, how many were on the list and by what authority? What 
criteria were used to determine these prior JDAL billets?
    Prior to 2007, Command and Staff College had two billets on the 
JDAL. These were the senior Army and Air Force faculty at the college. 
These faculty were responsible for developing and delivering joint 
curricula, representing their service, and mastering Marine Corps 
specific portions of the curriculum. Since they were immersed in joint 
matters, it was appropriate that they were listed on the JDAL.
    6) Has the quality of instructors gone down since then?
    We have not gone through a complete iteration of moves/personnel 
changes (not enough data) to either corroborate or negate the genesis 
of this question. Our current non-host Officers are of high quality but 
due to their background, we were going to lose three to retirement and 
one to Command at the end of the academic year. Not everyone can 
achieve Command, but it is our premise that former Commanders make the 
best Instructors because they understand leadership and can impart that 
earned and learned respect and leadership to their students. The 
students know they are listening to someone who has ``been there, done 
that''. If we let Officers get joint credit at non-host service 
institutions, we satisfy a requirement for them to attain Flag Officer 
rank without requiring another tour outside their respective service. 
In the Marine Corps, we look at an Officer file and check for 
credibility in his own Military Occupational Specialty before we 
promote that Officer or send them to school. The effect of not 
receiving joint credit as an ``exchange'' instructor is that the 
quality of the Officers may (no data as of yet) suffer as there is no 
incentive other than wanting to learn more about another service. It is 
very important to restore joint credit so we can continue to attract 
high quality Officers to our respective programs.
    Officers do get joint experience as faculty members of other 
service institutions. First they must immerse themselves in other 
service culture to learn and then teach in each curriculum. As an 
example, one of the first things in our program of instruction is the 
Marine Corps Planning Process; it is our baseline. We have Army, Navy 
and Air Force Officers teaching that process. The absolutely best way 
to learn is to teach. They are also inculcated with our culture 
beginning with faculty development in the weeks before the students 
arrive. Development included visits to an amphibious ship and a wing to 
not just talk about a Marine Air Ground Task Force, but to show a 
Marine Air Ground Task Force. The year is truly a joint experience.
    7) Are there other ways to encourage services to provide non-host 
quality instructors to schools without the need for JDAL billets?
    Currently, a Memorandum of Understanding (MOU) among all JPME I 
institutions is being finalized to articulate the requirements for non-
host faculty positions. A MOU already exists for JPME II institutions. 
While this will help since it provides the baseline qualifications, it 
will not define quality for those positions. The best way to encourage 
quality faculty serving at JPME I institutions is to ensure they 
receive joint credit for their assignment. As discussed earlier, there 
is a relatively small window in which officers must accomplish a 
multitude of tasks. Making sure they receive joint credit for the 
important work of educating future joint leaders is the best way to 
encourage quality faculty.
    8) If faculty from JPME I are allowed to be on the JDAL, should 
they also be required to meet the same requirements to be on the JDAL 
or do they need to have different requirements established?
    If non-host faculty serving in a teaching billet are on the JDAL, 
those billets will require the same scrutiny as all other JDAL billets. 
The requirements may be a little different depending on the litmus test 
given to the billet. For instance, it should be a teaching billet at a 
non-host, PME accredited school. If the non-host member does not teach, 
they should not be considered. Once on the JDAL, they will need to be 
reviewed within the same review cycle as all other JDAL billets.
    Submitted: 17 August 2009
    Prepared by Dr. Jerre W. Wilson, Vice President for Academic 
Affairs, MCU
    Approved by: Col Ray Damm, Director, Command and Staff College
    Col Paul O'Leary, Acting President, MCU deg.

                                  <all>

</pre></body></html>
